<html>
<title> - NOMINATIONS OF MARISA LAGO AND W. THOMAS REEDER, JR.</title>
<body><pre>[Senate Hearing 114-281]
[From the U.S. Government Publishing Office]





                                                        S. Hrg. 114-281
 
                    NOMINATIONS OF MARISA LAGO AND 
                         W. THOMAS REEDER, JR.

=======================================================================

                                HEARING

                               before the

                          COMMITTEE ON FINANCE
                          UNITED STATES SENATE

                    ONE HUNDRED FOURTEENTH CONGRESS

                             FIRST SESSION

                                 on the

                             NOMINATIONS OF

HON. MARISA LAGO, TO BE DEPUTY U.S. TRADE REPRESENTATIVE, WITH THE RANK 
OF AMBASSADOR, OFFICE OF THE UNITED STATES TRADE REPRESENTATIVE; AND W. 
                       THOMAS REEDER, JR., TO BE 
             DIRECTOR, PENSION BENEFIT GUARANTY CORPORATION

                               __________

                             JULY 23, 2015
                               __________


[GRAPHIC(S) NOT AVAILABLE IN TIFF FORMAT]


                                     
                                     

            Printed for the use of the Committee on Finance

                                   ______

                         U.S. GOVERNMENT PUBLISHING OFFICE 

20-446-PDF                     WASHINGTON : 2016 
-----------------------------------------------------------------------
  For sale by the Superintendent of Documents, U.S. Government Publishing 
  Office Internet: bookstore.gpo.gov Phone: toll free (866) 512-1800; 
         DC area (202) 512-1800 Fax: (202) 512-2104 Mail: Stop IDCC, 
                          Washington, DC 20402-0001









                          COMMITTEE ON FINANCE

                     ORRIN G. HATCH, Utah, Chairman

CHUCK GRASSLEY, Iowa                 RON WYDEN, Oregon
MIKE CRAPO, Idaho                    CHARLES E. SCHUMER, New York
PAT ROBERTS, Kansas                  DEBBIE STABENOW, Michigan
MICHAEL B. ENZI, Wyoming             MARIA CANTWELL, Washington
JOHN CORNYN, Texas                   BILL NELSON, Florida
JOHN THUNE, South Dakota             ROBERT MENENDEZ, New Jersey
RICHARD BURR, North Carolina         THOMAS R. CARPER, Delaware
JOHNNY ISAKSON, Georgia              BENJAMIN L. CARDIN, Maryland
ROB PORTMAN, Ohio                    SHERROD BROWN, Ohio
PATRICK J. TOOMEY, Pennsylvania      MICHAEL F. BENNET, Colorado
DANIEL COATS, Indiana                ROBERT P. CASEY, Jr., Pennsylvania
DEAN HELLER, Nevada                  MARK R. WARNER, Virginia
TIM SCOTT, South Carolina

                     Chris Campbell, Staff Director

              Joshua Sheinkman, Democratic Staff Director

                                  (ii)










                            C O N T E N T S

                              ----------                              

                           OPENING STATEMENTS

                                                                   Page
Hatch, Hon. Orrin G., a U.S. Senator from Utah, chairman, 
  Committee on Finance...........................................     1
Wyden, Hon. Ron, a U.S. Senator from Oregon......................     4

                        ADMINISTRATION NOMINEES

Lago, Hon. Marisa, nominated to be Deputy U.S. Trade 
  Representative, with the rank of Ambassador, Office of the 
  United States Trade Representative, Washington, DC.............     6
Reeder, W. Thomas, Jr., nominated to be Director, Pension Benefit 
  Guaranty Corporation, Washington, DC...........................     8

               ALPHABETICAL LISTING AND APPENDIX MATERIAL

Hatch, Hon. Orrin G.:
    Opening statement............................................     1
    Prepared statement...........................................    19
Lago, Hon. Marisa:
    Testimony....................................................     6
    Prepared statement...........................................    20
    Biographical information.....................................    22
    Responses to questions from committee members................    32
Reeder, W. Thomas, Jr.:
    Testimony....................................................     8
    Prepared statement...........................................    41
    Biographical information.....................................    42
    Responses to questions from committee members................    46
Wyden, Hon. Ron:
    Opening statement............................................     4
    Prepared statement...........................................    48

                                 (iii)


                 NOMINATIONS OF HON. MARISA LAGO, TO BE
                   DEPUTY U.S. TRADE REPRESENTATIVE,
                      WITH THE RANK OF AMBASSADOR,
                   OFFICE OF THE UNITED STATES TRADE
                     REPRESENTATIVE; AND W. THOMAS
                  REEDER, JR., TO BE DIRECTOR, PENSION
                      BENEFIT GUARANTY CORPORATION

                              ----------                              


                        THURSDAY, JULY 23, 2015

                                       U.S. Senate,
                                      Committee on Finance,
                                                    Washington, DC.
    The hearing was convened, pursuant to notice, at 10:04 
a.m., in room SD-215, Dirksen Senate Office Building, Hon. 
Orrin G. Hatch (chairman of the committee) presiding.
    Present: Senators Grassley, Crapo, Thune, Toomey, Wyden, 
Cantwell, and Bennet.
    Also present: Republican Staff: Chris Campbell, Staff 
Director; Mark Prater, Deputy Staff Director and Chief Tax 
Counsel; Everett Eissenstat, Chief International Trade Counsel; 
Preston Rutledge, Tax Counsel; Rebecca Eubank, International 
Trade Analyst; and Nicholas Wyatt, Tax and Nominations 
Professional Staff Member. Democratic Staff: Joshua Sheinkman, 
Staff Director; Jocelyn Moore, Deputy Staff Director; Michael 
Evans, General Counsel; Elizabeth Jurinka, Chief Health Policy 
Advisor; Kara Getz, Senior Tax Counsel; Jayme White, Chief 
Advisor for International Competitiveness and Innovation; 
Anderson Heiman, International Competitiveness and Innovation 
Advisor; Tiffany Smith, Senior Tax Counsel; Elissa Alben, 
International Trade Counsel; Ryan Carey, Press Secretary and 
Speechwriter; Ernie Jolly, Fellow; and Rob Jones, Detailee.

 OPENING STATEMENT OF HON. ORRIN G. HATCH, A U.S. SENATOR FROM 
              UTAH, CHAIRMAN, COMMITTEE ON FINANCE

    The Chairman. The committee will come to order.
    Good morning, and welcome to everybody to today's hearing 
to consider pending nominations. Today we have before the 
committee two nominees: Marisa Lago, who has been nominated to 
serve as Deputy U.S. Trade Representative, and Thomas Reeder, 
who has been nominated to be the Director of the Pension 
Benefit Guaranty Corporation, or PBGC.
    I want to welcome both of these nominees to the committee 
and commend them for their willingness to serve. Ms. Lago, if 
confirmed, you will be working during one of the most active 
periods for U.S. trade policy in recent history.
    After meeting with you, I believe you are a fine nominee, 
and I feel confident that you are qualified to complete all the 
tasks that lie ahead. I understand from the USTR that you will 
not be responsible for any of the ongoing trade negotiations, 
and I find it strange that the administration does not empower 
its Deputy U.S. Trade Representatives, positions that have been 
created by statute and are confirmed by the Senate, to manage 
trade negotiations. However, that is a decision that the 
President has apparently made, and I do not believe it should 
impact your nomination.
    However, as we conduct this nomination hearing, 
negotiations to conclude the Trans-Pacific Partnership are 
under way. I want to take a few minutes to outline my 
expectations for a strong TPP. I want a strong TPP agreement, 
and I would list five key components that I believe are 
necessary to win sufficient support for the agreement in the 
Senate.
    First, strong intellectual property rights protections are 
a critically important objective. Intellectual property is the 
backbone of our modern economy, impacting large and small 
businesses across America. In my home State of Utah, for 
example, half a million jobs and 67 percent of our exports are 
directly connected to intellectual property. That is why the 
TPA law recently passed by Congress and signed by President 
Obama requires that trade agreements meet the high standards 
for IP protections found in U.S. law. I fully expect the TPP to 
reflect these standards, including 12 years of regulatory data 
protection for biologics, strong copyright and trademark 
protections, prevention of trade secrets theft, and 
transparency and procedural fairness for reimbursement 
decisions relating to medical devices and pharmaceuticals.
    Second, we need to ensure that U.S. investors receive the 
same basic protections that we give to investors, foreign and 
domestic, here at home. This includes maintaining strong 
investor-state dispute settlement provisions that do not exempt 
products or industries from coverage.
    Third, TPP must provide real and comprehensive market 
access opportunities for U.S. exporters. That means a 
significant reduction and ultimately elimination of tariffs on 
U.S. exports of goods, services, and of course, agricultural 
products. Several parties to TPP are resisting our efforts to 
open agricultural markets. Let me be clear. If our TPP partners 
like Japan and Canada are not willing to open their markets to 
our exports, the final agreement will never receive sufficient 
support in Congress.
    Fourth, TPP must also reflect the priorities set forth in 
our TPA law regarding digital trade. This includes ensuring 
foreign governments do not impede cross-border data flows and 
eliminating forced localization requirements. These commitments 
should apply broadly to all sectors, including financial 
services and public telecommunications.
    Finally, an increasingly difficult problem our exporters 
face is unfair competition from state-owned enterprises. I want 
American businesses to be able to compete anywhere in the 
world, and it is essential for TPP to ensure that state-owned 
enterprises, including those owned by sovereign wealth funds, 
act on a commercial basis.
    I expect that the administration will reach a TPP agreement 
that meets these and other high standards outlined in our TPA 
law. Of course, if it falls short, Congress retains the right 
to reject the agreement or remove the expedited procedures, a 
right it will readily embrace if necessary.
    So as you can see, Ms. Lago, there are a lot of issues on 
USTR's plate. I trust you will do your best to see that the 
objectives I outlined here are met, and I do believe our Trade 
Representative is working hard to do that as well.
    Now I would like to take a few minutes to talk about Thomas 
Reeder. For those who do not know, Mr. Reeder is a veteran of 
this committee. He worked for Chairman Baucus. We want to 
welcome you back to the committee.
    Mr. Reeder, if confirmed, you will serve during one of the 
most challenging periods the PBGC has ever faced. As you know, 
this agency was established by the Employee Retirement Income 
Security Act in 1974 to insure the pensions owed to employees 
under private defined-benefit plans.
    In the 40 years it has been in existence, the PBGC has 
become a very important agency, insuring pensions for more than 
1.5 million participants and nearly 4,700 failed single-
employer and 
multiple-employer plans. For example, the PBGC made $5.6 
billion in payments in fiscal year 2014 alone. But in some ways 
this understates the challenges faced by the PBGC, particularly 
when we are talking about multi-employer pension plans.
    Last year, reports indicated that the deficits in PBGC's 
single-employer pension insurance program were projected to 
drop from more than $27 billion to just over $7 billion in 
2023. However, the story for the multi-employer program was 
altogether different, as those deficits are projected to 
increase from around $8 billion to nearly $50 billion over the 
next decade.
    Late last year, as part of the so-called Cromnibus, at the 
request of multi-employer pension plan managers, employers who 
contribute to multi-employer pension plans, and many unions 
representing employees, Congress passed the Multi-employer 
Pension Reform Act. Now, this new law gives pension plan 
trustees the power in extreme cases, and pursuant to 
regulations published by the Treasury Department, to reduce 
benefits in order to avoid plan insolvency and increased future 
reductions.
    So, as I have said before, this is a sobering moment for 
the pension system. Beyond the hardships some retirees 
inevitably will experience, it highlights both the challenge of 
delivering on the promise of lifetime retirement income and the 
stakes for retirees if the system fails.
    So, Mr. Reeder, if confirmed--and I believe you will be--
you will have your work cut out for you. Once again, I want to 
welcome both of our nominees today. I look forward to their 
testimony. Even without that testimony, I intend to support 
both of you through the committee and on to the floor.
    [The prepared statement of Chairman Hatch appears in the 
appendix.]
    The Chairman. With that, let me now recognize our great 
ranking minority member, Senator Wyden.

             OPENING STATEMENT OF HON. RON WYDEN, 
                   A U.S. SENATOR FROM OREGON

    Senator Wyden. Thank you very much, Mr. Chairman. As you 
know, we have a full plate, you and I, ahead of us.
    The Chairman. We sure do.
    Senator Wyden. I very much appreciate your making time for 
the hearing, and you have made many points that I certainly 
agree with today.
    The Finance Committee has before it two nominees for vital 
positions in the Federal Government. Marisa Lago is nominated 
to be a Deputy U.S. Trade Representative at USTR. We welcome 
you. And we welcome Mr. Tom Reeder, an alum of the Finance 
Committee. He has been nominated to be the Director of the 
Pension Benefit Guaranty Corporation.
    As Deputy USTR, Ms. Lago will be responsible for a number 
of critical trade issues, including improving labor conditions 
and environmental protections maintained by our trading 
partners, improving market access for American goods and 
services, and implementing the recently passed African Growth 
and Opportunity Act.
    I am especially appreciative, Mr. Chairman, of your 
highlighting congressional oversight of trade, which you and I 
talked about with Chairman Ryan at great length in our 
discussions, pointing out how important it is that these trade 
agreements actually meet the negotiating objectives. I think 
the fact that you have highlighted that is very welcome, and I 
appreciate your doing it.
    The fact is, USTR needs a full leadership team now more 
than ever to take on the range of trade priorities before it. 
As Ambassador Froman heads to Maui next week in an effort to 
conclude the Trans-Pacific Partnership, he will need to deliver 
on the priorities that members of Congress have here at home, 
because they are the priorities of the American people.
    For my part, that means ensuring that the TPP agreement 
contains 21st-century provisions to promote digital goods in 
the digital economy, provides an ambitious market-opening 
opportunity for Made in America products, including dairy, and 
contains strong enforceable rules on labor and the environment.
    This is a particularly important point, Ms. Lago, because, 
continually, those who have questioned the value of these trade 
agreements are talking about how trade agreements are in some 
way part of a race to the bottom. Chairman Hatch and I felt 
very, very strongly that if we worked out those labor and 
environmental provisions and made sure that they were 
enforceable, this would mean that the United States was a force 
for driving standards up.
    Our argument was, if we walk off the playing field, you 
bet, that invites a race to the bottom. But having the United 
States on the playing field is a force for driving standards 
up, and that is why your position is so important, and our 
priority is those strong, enforceable rules on labor and 
environment. In your position, you are going to play a key role 
in ensuring that each of these priorities is realized.
    Ms. Lago currently serves as Assistant Secretary at the 
Treasury Department. There, she works to improve global market 
access for American goods and services. Prior to joining 
Treasury, Ms. Lago held a number of positions promoting 
economic development in State and local governments and in the 
private sector. She also served as the head of the Office of 
International Development at the SEC.
    As I noted, we are very pleased that Mr. Tom Reeder is 
here, a graduate of the Senate Finance Committee staff, well-
known and admired by many here behind Chairman Hatch and me at 
the dais. Tom served as Senior Benefits Counsel on the 
committee for nearly 4 years and is well-known for not just his 
knowledge, but his passion for pension and employee benefits, 
and that has been invaluable during his years at the Finance 
Committee.
    He currently serves as Health Care Counsel at the IRS, and, 
before joining the Finance Committee, Mr. Reeder served at the 
Treasury Department in several different capacities. The 
Pension Benefit Guaranty Corporation needs strong leadership to 
tackle a number of difficult challenges, and I feel very 
strongly that Mr. Reeder is the right person for this very 
important job.
    It is my hope that Mr. Reeder will be confirmed quickly so 
he can take the reins of this agency at this critical time, as 
noted by Chairman Hatch. The Pension Benefit Guaranty 
Corporation insures the pension benefits of America's workers, 
and, at a time when the agency is under financial stress, 
employers are trending away from defined benefit plans, and the 
Nation's savings remain low. These are just several of the 
reasons why we need Mr. Reeder's extensive knowledge, his 
integrity, and his leadership.
    I also want to express my deep concern with several changes 
to the rules that govern multi-employer pensions that 
unfortunately were included in last year's omnibus package. The 
changes which were negotiated behind closed doors rolled back a 
major tenet of our pension law by allowing multi-employer plans 
to cut the earned and vested pension benefits.
    Let me emphasize, those pension benefits were earned. They 
were vested, and they were cut. This change could impact 
millions of workers around the country, and I am going to be 
working very closely with Mr. Reeder to ensure that the rights 
of our retired people are safeguarded. Thank you both for 
joining us.
    Mr. Chairman, I look forward to working closely with you on 
this.
    The Chairman. Well, thank you very much, Senator.
    [The prepared statement of Senator Wyden appears in the 
appendix.]
    The Chairman. As I have said, we have two distinguished 
nominees here today before us; first, Marisa Lago, who is 
nominated to be a Deputy U.S. Trade Representative. Currently, 
Ms. Lago serves in the Treasury Department as the Assistant 
Secretary for International Markets and Development, where I 
believe she is doing an excellent job. Before confirmation in 
2010, you served a long career in State and Federal Government. 
Your service and your willingness to continue serving are 
commendable.
    Now, Ms. Lago, if you could please introduce your family or 
any folks you have with you here today, we would be happy to do 
that.
    Ms. Lago. Thank you, Chairman Hatch and Ranking Member 
Wyden. I would like to take this opportunity to introduce my 
husband, Ronald Finiw. He has been my constant support for the 
41 years that we have been together. He is an architect who 
specializes in designing institutional buildings, including 
some here in Washington, DC.
    The Chairman. Well, we are happy to have you here. I 
appreciate you being here.
    Mr. Reeder, if you would care to introduce who is with 
you----
    Mr. Reeder. Yes. I would like to introduce one of my 
primary role models, my brother Joe Reeder, and I believe his 
spouse is here as well, Kate Boyce. Both of them have been very 
important to me in getting me to this point.
    I would also like to introduce my parents-in-law, Guido and 
Jewell Fenzi, who produced the other person I would like to 
introduce, my spouse Ruth, whose patience, advice, and 
sacrifice have led me to this point. Thank you.
    The Chairman. We are glad to welcome all of you to the 
committee today.
    You have been a public servant in the executive branch at 
Treasury and the IRS, and in the legislative branch on this 
committee. As a public servant and as a tax lawyer, you have an 
unsurpassed reputation for integrity and technical competence, 
and I think a well-deserved reputation for working with 
Senators and staff on both sides of the aisle.
    I want everybody to know that I support you, and, if 
confirmed, I trust that you will continue to work cooperatively 
with Congress, the administration, and with all stakeholders in 
the retirement community. So we are happy to have you, we are 
happy to have members of your family here with you, and 
friends. We welcome all of you to the committee.
    We will now invite both of you to give your testimony. We 
will start with you, Ms. Lago, first. Your full written 
testimony will appear in the record, and, if you could keep it 
to 5 minutes, we would appreciate it. But we will start with 
you, Ms. Lago, and then we will turn to you, Mr. Reeder, as 
soon as she is through.

        STATEMENT OF HON. MARISA LAGO, NOMINATED TO BE 
DEPUTY U.S. TRADE REPRESENTATIVE, WITH THE RANK OF AMBASSADOR, 
 OFFICE OF THE UNITED STATES TRADE REPRESENTATIVE, WASHINGTON, 
                               DC

    Ms. Lago. Thank you again, Chairman Hatch and Ranking 
Member Wyden. It is a tremendous privilege to be considered by 
this committee as a nominee for Deputy U.S. Trade 
Representative.
    Considering the achievements of those who have served in 
this position and also the urgency of our Nation's leadership 
on trade, as both of you have emphasized, it is also humbling 
to sit here before you today, and I am grateful to President 
Obama and to Ambassador Froman for their confidence in me.
    I have already introduced----
    The Chairman. Can I just interrupt for a second? [To the 
audience]: Please take the signs down, or we will have you 
removed forcibly from the committee because you are blocking 
the viewpoint of others as well. You have a right to feel the 
way you do, but we are not going to have any demonstrations in 
the committee.
    Go ahead. Sorry to interrupt you.
    Ms. Lago. Thank you. You have already given me the 
opportunity to introduce my husband, but I would also like to 
note two other people who have had a major influence on my 
life. One is my mother, Maria Pita, who could not be here 
today. She is a Spanish immigrant and proud American, and she 
gave me the invaluable gift of raising me bilingually. I would 
also like to recognize my late father, Louis Lago, who was the 
child of Spanish immigrants and a World War II Navy veteran. 
They instilled in me a thirst for learning and could not have 
been more proud when I became my family's first college 
graduate.
    Now, my father was also a 30-plus-year civilian employee of 
the Department of Defense, and he shared with me his pride in 
being a public servant. It is a lesson that I have carried with 
me through my career in Federal, State, and local government.
    Throughout my time in government, regardless of the role, I 
have seen firsthand the power of trade and investment to 
improve lives. One example was in New York, where I headed the 
State's Economic Development Authority and I was able to help 
revitalize a decaying Brooklyn waterfront, a waterfront where 
my grandfather had once worked on tugboats.
    In my current role at Treasury, I have worked with the 
World Bank and the regional development banks as they have 
helped to increase poor women's access to capital. This allows 
these women to build businesses to support communities, and, 
over the long term, it creates export opportunities for U.S. 
businesses, small and large.
    President Obama and his team at USTR, with the support of 
this committee and the full Congress in passing the three 
recent trade bills, are pursuing the most ambitious trade 
agenda in a generation. It is an agenda that is designed to 
support more good jobs in the U.S., strengthen the middle 
class, and build on the gains that we have made in recent 
years.
    Reaching agreements with 11 other countries in the Asia 
Pacific region and the European Union's 28 member states is the 
heart of the trade agenda. Once concluded, TPP and TTIP will 
give the U.S. unfettered access to two-thirds of the global 
marketplace.
    The Obama administration is also pursuing landmark 
agreements in Geneva that would eliminate tariffs for 90 
percent of trade in information technology products and 
environmental goods, as well as liberalized services trade with 
75 percent of the world services market.
    These agreements will support additional good-paying jobs 
in those sectors where the U.S. has a competitive advantage. 
These agreements provide an unparalleled opportunity for the 
U.S. to continue shaping the rules of the road for the world 
trading system.
    However, if the U.S. does not adapt our trading system to 
better reflect today's global economic realities, we risk 
ceding leadership to other countries, countries that may not 
share our interests and our values and that may pursue their 
own regional initiatives with weaker standards for protecting 
labor, the environment, and intellectual property.
    The trade deals that our negotiators strike will level the 
playing field for U.S. workers, farmers, ranchers, businesses, 
and service providers. I understand full well, however, from my 
vantage point at Treasury and my prior service at the 
Securities and Exchange Commission, that our international 
agreements require vigilant monitoring and enforcement.
    The Obama administration has filed 19 complaints at the WTO 
and has won every one of them. If confirmed, I will work to 
ensure vigorous implementation and enforcement of all of our 
multi-
lateral, regional, and bilateral agreements.
    I must again thank this committee, and all of Congress, for 
having passed a historic trade package. This is a critical step 
that will allow us to conclude, and then enforce, high-standard 
agreements to give middle-class workers the fair shot that they 
deserve to compete and win in today's global economy. It will 
open markets for businesses and innovators, and it will support 
a prosperous future for millions throughout the developing 
world.
    These are ambitious goals, but as heirs to a long tradition 
of American leadership on trade--leadership that has routinely 
risen above party division to advance our Nation's interests 
and values--we should aim for nothing less. Thanks to the 
strong leadership of this committee, trade policy remains among 
the most promising areas for bipartisan cooperation.
    It would be an honor to help carry out the marching orders 
that Congress has provided the Obama administration through the 
TPA. I know that this committee and USTR have a long history of 
partnership, and, if confirmed, I commit to maintaining that 
same level of cooperation. Thank you.
    The Chairman. Well, thank you. We appreciate your 
willingness to serve and appreciate your long service in 
government.
    [The prepared statement of Ms. Lago appears in the 
appendix.]
    The Chairman. Mr. Reeder, we will take your testimony now.

 STATEMENT OF W. THOMAS REEDER, JR., NOMINATED TO BE DIRECTOR, 
      PENSION BENEFIT GUARANTY CORPORATION, WASHINGTON, DC

    Mr. Reeder. Mr. Chairman, Ranking Member Wyden, members of 
the committee, thank you for the opportunity to discuss my 
nomination today.
    The Pension Benefit Guaranty Corporation continues to 
endure challenging times. As alluded to by both the chairman 
and ranking member, its fiscal year 2014 deficit increased to 
$62 billion, up from $32 billion the year before.
    While the single-employer program has improved 
significantly, the multi-employer program has deteriorated. 
Congress responded to this crisis with the enactment of the 
Kline-Miller Multi-employer Pension Reform Act.
    That act included tools to extend the solvency of the 
multi-
employer program. PBGC and the Treasury and Labor Departments 
have already provided much of the administrative framework and 
guidance to make that law work as intended. If confirmed, one 
of my highest priorities will be to work closely with Treasury 
and the IRS, with the Department of Labor, and all 
stakeholders, to make sure that that law is administered 
fairly.
    However, the Kline-Miller legislation has provided only a 
year or two more of time. More has to be done in the multi-
employer system if we are to avoid insolvency of that system 
within the next 10 years.
    Of course, the issues at the PBGC are much more than the 
deficit of the multi-employer program. The agency is 
administering and providing assistance to plans that cover 1.5 
million people, two-thirds of whom are already receiving 
benefits. Pay-outs to retirees under these plans, as the 
chairman indicated, amounted to $5.6 billion in fiscal year 
2014, and PBGC manages investments of approximately $80 
billion. If confirmed, I will work hard to ensure that the 
agency continues to focus on its strategic goals of preserving 
plans, protecting pensioners, paying timely and accurate 
benefits, and maintaining high standards of stewardship and 
accountability.
    I am honored to be nominated for this position, and I am 
eager to take on the challenge. I have devoted most of my 
professional career to helping employers establish and maintain 
retirement plans for their employees and helping individuals 
achieve retirement security.
    I believe my background has well prepared me for this role. 
During my work in private practice and as an executive at the 
Treasury Department, I gained a reputation for working 
cooperatively with all the stakeholders in the employee 
benefits arena, including employers, employee and retiree 
groups, other agencies, and Congress. I have found that 
retirement security is a high priority shared by leaders of 
both political parties.
    As has already been indicated, I was a staffer in the 
employee benefits area in this committee. As such, I learned 
firsthand the importance of agencies coordinating closely with 
members and their staff, and I look forward to doing just that. 
I want to hear your ideas and be responsive to your concerns 
about the agency.
    We need to find creative ways to involve more employees and 
their employers in retirement preparedness, but, at a minimum, 
we must devote ourselves to protecting the promise that has 
already been made to employees for lifetime income from their 
employers' pension plans.
    In preparing for this confirmation process, I have learned 
even more about the talent and professionalism of the staff at 
the PBGC and their dedication to their responsibility of 
protecting the pensions of more than 40 million Americans. If 
confirmed, I would be honored to join them, and I look forward 
to working with Congress and everyone who shares the goals of 
the PBGC.
    Thank you for the opportunity to appear before you today, 
and I would look forward to hearing your views and your 
questions. Thank you.
    The Chairman. Thank you so much.
    [The prepared statement of Mr. Reeder appears in the 
appendix.]
    The Chairman. I have some obligatory questions that I need 
to ask all nominees, so if you can both listen carefully.
    First, is there anything that either of you is aware of in 
your backgrounds that might present a conflict of interest with 
the duties of the office to which you have been nominated?
    Mr. Reeder. No.
    Ms. Lago. No.
    The Chairman. All right.
    Do you know of any reason, personal or otherwise, that 
would in any way prevent you from fully and honorably 
discharging the responsibilities of the office to which you 
have been nominated?
    Ms. Lago. No.
    Mr. Reeder. No.
    The Chairman. All right.
    Do you agree, without reservation, to respond to any 
reasonable summons to appear and testify before any duly 
constituted committee of Congress, if you are confirmed?
    Ms. Lago. Yes.
    Mr. Reeder. Yes.
    The Chairman. Finally, do you commit to provide a prompt 
response in writing to any questions addressed to you by any 
Senator of this committee?
    Ms. Lago. Yes.
    Mr. Reeder. Yes.
    The Chairman. All right. I appreciate that.
    Ms. Lago, if confirmed, I understand your portfolio will 
include the western hemisphere. I must say, I am pretty 
disappointed in the administration's trade policy in the 
Americas, so you can take that for whatever it is worth. From 
my perspective, the Americas just do not seem to be a priority. 
And it is not just this administration, it is others as well.
    So I am glad the President has finally decided to fill this 
position at the Deputy USTR level, putting someone like you at 
the helm of our trading relationship in the western hemisphere 
with the political clout to make the region a priority.
    If confirmed, what will you do to ensure that our trade 
policy with the Americas is a priority, and what specific goals 
would you like to see accomplished in the region during your 
tenure as Deputy U.S. Trade Representative?
    Ms. Lago. Thank you, Mr. Chairman, for focusing on the 
Americas. It is a region with which I have been involved in 
quite a number of my positions, including at Treasury, a region 
that is a natural for heightened involvement for the U.S. It is 
our closest hemisphere.
    In looking at the Americas and the opportunities there, I 
see a number of avenues. One would be continued focus on our 
existing trade relationships, assuring that our trade partners 
live up to their obligations but also working with those of our 
trade partners in the region that are emerging economies to 
make sure that they also are able to take advantage of the 
trade relations that they have with the United States.
    I think there are also other opportunities. As we look at 
the Americas, it is hard to paint a continent as just one 
entity. We see within Central America the need to address 
challenges that were brought to the forefront with the migrant 
children, the need to foster economic opportunity. Again, we 
can do that, both under existing trade agreements and through 
bilateral engagement.
    There are economic powerhouses within the Americas, and I 
speak particularly of the Pacific alliance countries of Mexico, 
Colombia, Peru, and Chile. With those countries, I would hope 
to build upon my existing relationships with their senior 
government officials to explore further economic integration.
    Another untapped potential is Brazil. Through the Treasury 
Department, we already have a high-level economic dialogue, and 
I would again hope to build upon the interest of the business 
community in Brazil to heighten our economic engagement with 
that country.
    The Chairman. Well, thank you so much.
    Mr. Reeder, one of the most difficult tasks at the PBGC is 
calculating the correct pension amount for a retiree in a plan 
that the PBGC has taken over and the correct amount of the plan 
liabilities overall. We have heard that the PBGC is in the 
process of reorganizing the department that performs this work 
and the work of measuring the liabilities of plans that are 
taken over by the PBGC. This department employs accountants, 
actuaries, attorneys, and auditors, as well as utilizing 
outside contractors.
    Now, given that the reorganization has not been completed 
yet, would you prefer to have some time after you become 
Director, if confirmed, before the reorganization takes effect 
to review the proposed changes and to be sure that you agree 
with them?
    Mr. Reeder. Thank you, Chairman Hatch. I have learned very 
quickly during this confirmation process that, once I am 
confirmed, assuming I am confirmed, everything will be on my 
plate. I am fully aware of the reorganization plan that has 
already started. I have not been fully briefed on it, but I do 
know that it was undertaken in response to issues raised, not 
the least of which were raised by the PBGC Inspector General.
    I want to make sure that those issues are adequately 
addressed. When coming on board, I do not know that I want to 
derail the process, but I will certainly examine it and make 
sure it is something I am on board with.
    The Chairman. Well, thank you. My time is just about up, so 
I think what I will do is turn to Senator Wyden at this point.
    Senator Wyden. Thank you very much, Mr. Chairman.
    I thank both of you for your service. Let me start with 
you, Ms. Lago. Maybe we will have to have two rounds.
    As you know, Ms. Lago, critics of past trade agreements 
have often said that enforcing the trade laws gets a lot of lip 
service. Suffice it to say, I thought they had a pretty valid 
point during this kind of debate. The administration, to its 
credit, has been moving to change this. I think, for example, 
the rare earths decision is very good. I think obviously we 
sought to do that in our bipartisan TPA bill--make some 
fundamental changes. You have noted it in your statement this 
morning. All of that is to the good.
    But obviously, we have a lot more to do, so tell me in 
particular, and sort of act as if you were responding to the 
critics, how you are going to actually enforce the labor and 
environmental laws so we get the standards up.
    Because people just say, they have all these negotiating 
objectives, but where are the teeth? Who is really going to 
make sure, in an enforceable, aggressive way, that we enforce 
the trade laws? Tell us how you are going to do that when you 
are confirmed.
    Ms. Lago. Thank you, Senator. Your focus on enforcement is 
consistent with how I would approach the position, if 
confirmed. As you are likely aware, I come from the Securities 
and Exchange Commission, an enforcement agency.
    I have worked as a compliance officer, and so I know that, 
as important as negotiating a trade agreement is, as difficult 
as it is to achieve congressional approval of a trade 
agreement, there is a third, equally important phase which 
starts once the trade agreement has been adopted, and that is 
the implementation. I view implementation and enforcement as 
being part of a spectrum.
    One needs a variety of tools to make sure that our trade 
agreements are implemented, that U.S. workers, U.S. businesses 
receive the benefits by having our foreign counterparts live up 
to their obligations. I think it starts with engagement with 
our counterparts, not just walking away from the negotiating 
table, but continuing to engage with our foreign counterparts.
    It requires engagement with our domestic stakeholders, 
because they will frequently be on the front lines of being 
aware of those places where our trade agreements are or are not 
working, and it involves, in appropriate cases, using an 
arbitral or enforcement mechanism. We are fortunate in that TPA 
has laid out very clear expectations with respect to labor and 
the environment, and in particular making sure that these 
provisions are binding and enforceable through the full gamut 
of trade remedies, the same remedies that are available for 
commercial provisions.
    Turning to how I would do that, I would draw upon the way I 
have approached my current position, which is that no single 
agency has all of the answers. It would be extremely important 
in looking to enforcement of our trade agreements to work with 
our State Department, and in particular the embassies on the 
ground in the countries of our trading partners, to work with 
our Department of Labor, work with the Environmental Protection 
Agency, the Department of Energy, USAID, and other agencies 
that can bring their expertise to bear.
    Second would be working with our stakeholders, our 
stakeholders across the full gamut, from our businesses, to our 
labor unions, to our NGOs, to our rich civil society 
organizations, and obviously a key facet is going to be working 
with the members of Congress, and this committee in particular.
    Senator Wyden. I would like to go over this with you a 
little bit more, because I think those are good principles, but 
I still want to know more about how you are going to make the 
judgment to send a really tough message. Because, when you 
consult with stakeholders, that is good, I am glad we are doing 
that, but what the stakeholders really need to hear is that 
this time it is different. It is not just a consultation. It is 
not a check-the-box kind of thing.
    We are required to talk to them. They want to know, are we 
going to be serious about bringing strong actions? We did that 
with rare earths, and we have had other instances of 
enforcement. Certainly my constituents have been the victims of 
massive dumping in the solar area. The Chinese hacked into a 
major employer in our area. We indicted them for it.
    This is an example where, yes, I care a lot about it 
because it is my workers, but I mostly care about it because 
you cannot just talk about enforcement in the abstract. It has 
to be real, and you have to be willing to go the distance. So I 
am going to want to talk to you some more about it, and also I 
will ask you, in writing, to tell me a bit more about your 
priorities on digital goods and access to services in that 
particular market, because Senator Cantwell and I come from a 
part of the world that is responsible for a lot of good-paying, 
high-skill jobs. I will ask you to furnish that in writing.
    [The information appears in the appendix on p. 35.]
    Senator Wyden. Mr. Reeder, I will get to you on the next 
round.
    Thank you, Mr. Chairman.
    The Chairman. Thank you, Senator.
    Senator Cantwell?
    Senator Cantwell. Thank you, Mr. Chairman. I will try to be 
brief so I can get to both of you, because I definitely view 
you as two critical assets to the future of our country and the 
future of economic opportunity for individual workers. So, 
congratulations on both of your nominations.
    Ms. Lago, how do we make sure that dairy products get 
access to Japan and Canada, specifically, and how do we also 
make sure that the human rights violations in Vietnam are 
addressed?
    And then to you, Mr. Reeder, I think my constituents, when 
it comes to multi-employer pension plans, want to know, why do 
we bail out big banks but we do not bail out the pension plans? 
So, when I look at the priorities for tax reform and people who 
want to reduce the corporate tax rate, I look at it and say, 
what are we going to do to stabilize the massive disruption to 
retirement savings that happened in relation to the economic 
downturn?
    If we think that we are somehow, as a Federal Government, 
protected from that, we are not, because what is going to 
happen is, millions of Americans who are not going to have 
their retirement savings and are going to rely solely on Social 
Security, are going to be left short, and then they are going 
to end up depending on us for other benefits. So to me, I want 
to hear your ideas about how we get investment in the pension 
program to stabilize multi-
employer plans.
    Ms. Lago. Thank you, Senator, for raising the issue about 
market access, and in particular in the dairy sector. We are 
engaged, through TPP, with both of these countries. Both of 
them knew coming into the TPP negotiations that the expectation 
was that they would need to provide meaningful market access. I 
understand that USTR is continuing to engage with both 
countries in these specific sectors and that these discussions 
will continue, including this weekend and next week in Maui.
    I understand that these are sensitive sectors for both 
countries, but again, USTR has informed the countries--all of 
the negotiating partners knew coming in--that these were areas 
where there would have to be commercially meaningful market 
access in order to conclude an agreement that could be brought 
back to Congress.
    Turning to the issue of Vietnam, the State Department is 
the part of the U.S. Government that takes the lead on human 
rights, but through TPP we have the opportunity to incentivize 
Vietnam even further to bring them to the table to have the 
discussion about their human rights, about their labor 
practices. So that is an opportunity that we are continuing to 
exploit.
    Through TPP, we have the opportunity to shape the terms of 
engagement in this region, to say what it is that we expect 
with respect to transparency, governance, rule of law, labor 
protections. So it is because of TPP that we are able to have 
yet another opportunity to engage productively with Vietnam.
    Senator Cantwell. Well, I want to make sure that just--I 
had a chance to talk to President Abe about U.S. imports to 
Japan, and so I just really want to make sure that on all these 
sensitive products--wheat, beef, dairy--we keep fighting the 
battle.
    Mr. Reeder?
    Mr. Reeder. Thank you for bringing that up, Senator 
Cantwell. I wish I had an easy answer, because if there were an 
easy answer, the steps would have already been taken. The 
solution to the multi-employer problem right now is going to 
involve some combination of factors or of steps that will 
involve some kind of pain or some kind of difficult political 
reality.
    One is to reduce benefits. That unprecedented step was 
taken in the last Congress, last year. I cannot sit here and 
say that I would have voted for that, but it is the law, and 
one of my objectives is to make sure that that is administered 
as fairly as possible.
    Another is to increase premiums that plans pay towards the 
multi-employer system, and another one is to find money from 
some other source to assist troubled multi-employer plans to--
--
    Senator Cantwell. I like that idea.
    Mr. Reeder. Well, the administration has a proposal to 
address one of the most significantly troubled multi-employer 
plans, the United Mine Workers' plan, by using amounts that are 
available in another fund. I think that is worth exploration. 
If that step were taken, I think we would be one step closer to 
shoring up the----
    Senator Cantwell. Well, I know my time has expired, Mr. 
Chairman. Just, if you could help us in understanding the 
Federal Government liability, not by yourself, but I am sure we 
could work with other agencies and CBO to get our colleagues to 
understand what happens when these plans collapse.
    You can certainly ask people to do with less, but at the 
same time, the retirement population that does not have enough 
savings is coming at us, and that is going to end up being a 
liability to the Federal Government.
    So, before we give a bunch of money away to corporations 
for tax breaks, we had better be figuring out what we are doing 
about retirement savings for Americans. They did not get bailed 
out, Wall Street did. Thank you.
    Senator Wyden. I am glad to hear you would not have voted 
for it either.
    Mr. Reeder. I think I said, ``I cannot say I would have 
voted for it.'' [Laughter.]
    Senator Wyden. I like your answer. [Laughter.]
    The Chairman. I like your qualification too. I thought it 
was pretty good.
    Thank you, Senator. Senator Thune?
    Senator Thune. Thank you, Mr. Chairman.
    Ms. Lago, I understand your portfolio will include small 
business issues. We often overlook the benefits of trade to 
small businesses when we talk about trade deals such as TPP or 
TTIP. If confirmed, how will you help to raise awareness 
regarding the benefits of trade to America's small businesses, 
and do you agree that both Congress and the administration need 
to do a better job of making sure that international trade is 
not just about multinational corporations?
    Ms. Lago. Thank you, Senator, for raising the issue of 
small business. I think all are agreed that there is untapped 
potential there. It is such a small percentage of our small and 
medium-sized businesses that currently export.
    When one looks at those small and medium-sized enterprises 
that do export, a very high percentage of them export to only 
one or two countries. So, I think that there is market 
opportunity. If confirmed, I would intend to focus on outreach, 
working with the small businesses directly through their trade 
associations in raising awareness.
    I think the other thing that is important is that, within 
the trade agreements, within TPP, we are looking to address 
some of the non-tariff barriers to trade. If one is a large 
multinational, it may be far easier to deal with difficulties 
in our trading partners' regulatory environment inefficiencies 
and those non-tariff stumbling blocks.
    So I do believe that, even in the structure of the trade 
agreements, we can make it easier for small businesses. But of 
course, if confirmed, I would want to reach out to make sure 
that they are aware of the opportunities and that they have an 
advocate within USTR.
    Senator Thune. I think that would be great. I think there 
is enormous untapped potential out there. I do think that it is 
harder for small businesses because, for larger companies that 
have the benefit of economies of scale and legal staffs and 
people who can explore and get through all the regulatory and 
sometimes other obstacles that exist, it is much easier.
    I come from a State where we have a lot of small businesses 
that I think have a lot of upside potential when it comes to 
creating jobs and growing their businesses through trade, so I 
hope that will be a focus, particularly with the new trade 
agreements, should they ultimately go into effect. I think 
there is a real window of opportunity there.
    As you know, Congress recently passed and the President 
signed into law an extension of the African Growth and 
Opportunity Act, or AGOA. My understanding is that you also 
have in your portfolio the responsibility over our trade 
relationship with the African continent.
    So the question is, what do you see as the major 
impediments to expanded U.S. trade with that region? As the 
middle class expands in Africa, what are the best opportunities 
that you see for American businesses in Africa?
    Ms. Lago. Thank you, Senator, for focusing on the 
opportunities in Africa. For many years, Africa was viewed as a 
continent where the major defining feature was aid, and, at 
this point, we have an Africa with a large number of economies 
that want to be seen as economic opportunities, as growth 
opportunities. That is where AGOA and bilateral relationships 
give us opportunities.
    When we look at AGOA, the take-up by African countries is 
not as high as it could be, and so I think it would be 
important to work with the African nations themselves to make 
sure that they are able to take advantage of Congress's 
historic expansion of AGOA for 10 years.
    If confirmed, I would also look to be working bilaterally 
with countries, countries with which I already have strong 
relationships from my current role at Treasury, as well as my 
involvement with the World Bank and the African Development 
Bank. I do think that another key to working in Africa is 
working regionally.
    Many of the economies are individually quite small and face 
capacity issues, but there are strong regional associations 
like the East African Community, and I think that working with 
them, being able to provide technical capacity building, opens 
up opportunities for U.S. exporters to look at Africa as an 
area for growth.
    Senator Thune. And it strikes me, having been there a few 
times, that their economies could benefit enormously from the 
technology, technical expertise, and things that we in our 
country can provide.
    I look specifically--because it is an area of great 
importance to my State and region of the country--at 
agriculture. I look at the enormous potential in Africa and 
some of the obstacles that exist to them being able to lift 
their economies and their standard of living through more 
robust agricultural production and trading opportunities.
    So I know that that is probably not something that you 
would be specifically focused on, but there are a lot of 
departments and agencies that we have in our government that I 
would like to see more involved in that area and trying to 
bring that economy along, because there is tremendous potential 
there that could do so much to improve the lives of people on 
the continent, and we need to be looking at those areas.
    So, my time has expired. Thank you.
    The Chairman. Thank you, Senator Thune.
    Senator Grassley?
    Senator Grassley. Yes. I have one question for each of you. 
In your case, Ms. Lago, if you do not have an answer to this 
question, you will not irritate me in any way, so do not make 
up an answer. [Laughter.]
    You have had a wide array of experiences from your various 
jobs, from the private sector to the Department of 
Transportation, so I am curious to know, what do you believe 
will be the biggest challenges for U.S. exporters to overcome 
in international markets over, let us say, the next 5 years?
    Ms. Lago. Senator, that is a challenging question, but I 
will take a stab at an answer, because I do think that the 
challenge that all exporters and all businesses face is the 
changing global environment, whether it is the emergence of 
formerly poor countries into middle-income status and even 
upper middle-income status, or whether it is the evolution in 
technology and the fact that our economy today as we negotiate 
TPP is very different from the economy, even at the time of our 
most recent free trade agreements. So, it is dealing with the 
impact of change across all of the dimensions.
    I certainly applaud this committee and the Congress for, in 
the TPA, recognizing that principal negotiating objectives had 
to go beyond prior objectives and address issues of our 
Internet economy, of our digital economy, to make sure that the 
U.S. stays at the forefront of shaping the rules of the road 
for that economy.
    Senator Grassley. Mr. Reeder, I am going to quote to you 
what previous Director Brad Belt wrote in a column last year in 
which he argued it was necessary for Congress to make three 
changes to current law, so I am really asking your thoughts on 
these three changes. They include: (1) empowering the PBGC to 
set its own premiums; (2) changing the PBGC board to include 
financial market and pension experts rather than consisting of 
secretaries of Labor, Treasury, and Commerce; and (3) granting 
the PBGC greater authority to work with distressed multi-
employer and single-
employer plans.
    So, what are your thoughts on those suggested changes?
    Mr. Reeder. Well, on the first one, there is a proposal to 
grant the board of the PBGC authority to set premiums and 
allocate premiums. I think the proposal would establish very 
strict criteria that would be determined by Congress and would 
require input from all stakeholders. I think that is an idea 
worth considering; however, I do recognize that it would be a 
difficult thing to get enacted.
    It was a proposal when I was a staffer here, and I do not 
think it ever got to first base, so I am recognizing that it 
would be very difficult politically for Congress to give that 
authority to the PBGC or to the PBGC board. I should recognize 
that the PBGC board is very different than PBGC, because it 
would incorporate the Treasury Department, the Commerce 
Department, and the Department of Labor.
    As far as expanding the board, that is something that we 
would certainly like to work with you on, coming up with ideas 
and ramifications. It is not something I have thought about 
before, so I do not have an answer.
    Empowering the PBGC to work more closely with endangered 
and failed retirement plans, I think that is something that has 
previously been done by Congress, starting with the Pension 
Protection Act in 2006, and then with the most recently enacted 
MEPRA. I think Congress is doing that more and more. They are 
giving the PBGC more tools to work with plans that are in 
trouble. So the last item, I think, is actually being 
addressed.
    Senator Grassley. Thank you both. I yield back.
    The Chairman. Well, thank you, Senator.
    Senator Wyden has another question.
    Senator Wyden. Just one last question, Mr. Chairman.
    To fulfill the PBGC mission, Mr. Reeder, the agency has to 
collect personal and financial data about millions of Americans 
and thousands of companies. As you know, there has been an 
onslaught of troubling security breaches, data security 
breaches. What steps, in your view, would you pursue to make 
sure that the agency can effectively safeguard both personal 
data of retired persons and sensitive financial information 
from plan sponsors?
    Mr. Reeder. Thank you, Senator Wyden. As a Federal 
employee, I am keenly aware of the problems that have arisen in 
the past months. It is something that is of utmost importance 
to me, and I know to the PBGC, just from having talked to them. 
They are entrusted with lots of information from plan 
participants and plan sponsors, and, in light of recent events, 
protecting that information will be one of my top priorities at 
PBGC.
    I do believe that the Office of Management and Budget has 
already issued directives to all agencies to check and evaluate 
their technical requirements and their IT components, and I do 
believe PBGC has gone through that process, and I think they 
have done very well, but it is something that we all must 
always be vigilant for. That personal information is something 
that we absolutely must protect, and I will do whatever I can 
to make that happen.
    Senator Wyden. Thank you, Mr. Chairman.
    The Chairman. Thank you.
    I want to thank the nominees for appearing here today, and 
I also want to thank the Senators who have participated. This 
has been a good hearing, and you both are excellent candidates 
for these positions.
    Any questions for the record should be submitted by no 
later than Monday, July 27th.
    With that, this hearing is adjourned. We wish you both the 
very best.
    [Whereupon, at 11:02 a.m., the hearing was concluded.]

                            A P P E N D I X

              Additional Material Submitted for the Record

                              ----------                              


              Prepared Statement of Hon. Orrin G. Hatch, 
                        a U.S. Senator From Utah
WASHINGTON--Senate Finance Committee Chairman Orrin Hatch (R-Utah) 
today delivered the following opening statement during a committee 
hearing considering nominations for the Office of the United States 
Trade Representative and the Pension Benefit Guaranty Corporation:

    Today we have before the committee two nominees: Marisa Lago, who 
has been nominated to serve as Deputy United States Trade 
Representative, and Thomas Reeder, who has been nominated to be the 
Director of the Pension Benefit Guaranty Corporation, or PBGC.

    I want to welcome both nominees to the committee and commend them 
both for their willingness to serve.

    Ms. Lago, if confirmed, you will be working during one of the most 
active periods for U.S. trade policy in recent history. After meeting 
with you, I believe you are a fine nominee and I feel confident that 
you are qualified to complete all the tasks that lie ahead.

    I understand from USTR that you will not be responsible for any of 
the ongoing trade negotiations. I find it strange that the 
administration does not empower its Deputy U.S. Trade Representatives, 
positions that have been created by statute and are confirmed by the 
Senate, to manage trade negotiations. However, that is a decision that 
the President has apparently made and I do not believe it should impact 
your nomination.

    However, as we conduct this nomination hearing, negotiations to 
conclude the Trans-Pacific Partnership are underway. I want to take a 
few minutes to outline my expectations for a strong TPP agreement, with 
five key components that I believe are necessary to win sufficient 
support for the agreement in the Senate.

    First, strong intellectual property rights protections are a 
critically important objective. Intellectual property is the backbone 
of our modern economy, impacting large and small businesses across 
America.

    In my home state of Utah, for example, half a million jobs and 67 
percent of our exports are directly connected to intellectual property.

    That is why the TPA law recently passed by Congress and signed by 
President Obama requires that trade agreements meet the high standards 
for IP protections found in U.S. law. I fully expect the TPP to reflect 
these standards, including 12 years of regulatory data protection for 
biologics, strong copyright and trademark protections, prevention of 
trade secrets theft, and transparency and procedural fairness for 
reimbursement decisions relating to medical devices and 
pharmaceuticals.

    Second, we need to ensure that U.S. investors receive the same 
basic protections that we give to investors--foreign and domestic--here 
at home. This includes maintaining strong investor-state dispute 
settlement provisions that do not exempt products or industries from 
coverage.

    Third, TPP must provide real and comprehensive market access 
opportunities for U.S. exporters. That means significant reduction, and 
ultimately elimination, of tariffs on U.S. exports of goods, services, 
and, of course, agricultural products.

    Several parties to TPP are resisting our efforts to open 
agricultural markets. Let me be clear: If our TPP partners--like Japan 
and Canada--are not willing to open their markets to our exports, the 
final agreement will never receive sufficient support in Congress.

    Fourth, TPP must also reflect the priorities set forth in our TPA 
law regarding digital trade. This includes ensuring foreign governments 
do not impede cross-
border data flows and eliminating forced localization requirements. 
These commitments should apply broadly to all sectors, including 
financial services and public telecommunications.

    Finally, an increasingly difficult problem our exporters face is 
unfair competition from state-owned enterprises. I want American 
businesses to be able to compete anywhere in the world. It is essential 
for TPP to ensure that state-owned enterprises--including those owned 
by sovereign wealth funds--act on a commercial basis.

    I expect that the administration will reach a TPP agreement that 
meets these and other high standards outlined in our TPA law. Of 
course, if it falls short, Congress retains the right to reject the 
agreement or remove the expedited procedures, a right I will readily 
embrace if necessary.

    So, as you can see, Ms. Lago, there are a lot of issues on USTR's 
plate. I trust you will do your best to see that the objectives I 
outlined are met.

    Now, I'd like to take a few minutes to talk about Thomas Reeder.

    For those who don't know, Mr. Reeder is a veteran of this committee 
and worked for Chairman Baucus.

    Welcome back, Mr. Reeder.

    If confirmed, you will serve during one of the most challenging 
periods the PBGC has ever faced. As you know, this agency was 
established by the Employee Retirement Income Security Act of 1974 to 
insure the pensions owed to employees under private defined-benefit 
plans. In the 40 years it has been in existence, the PBGC has become a 
very important agency, insuring pensions for more than 1.5 million 
participants in nearly 4,700 failed single-employer and multi-employer 
plans.

    For example, the PBGC made $5.6 billion in payments in FY 2014 
alone.

    But, in some ways, this understates the challenges faced by the 
PBGC, particularly when we're talking about multi-employer pension 
plans.

    Last year, reports indicated that the deficits in PBGC's single-
employer pension insurance program were projected to drop from more 
than $27 billion to just over $7 billion in 2023. However, the story 
for the multi-employer program was altogether different, as those 
deficits are projected to increase from around $8 billion to nearly $50 
billion over the next decade.

    Late last year, as part of the so-called Cromnibus, at the request 
of multi-
employer pension plan managers, employers who contribute to multi-
employer pension plans, and many unions representing employees, 
Congress passed the Multi-employer Pension Reform Act. This new law 
gives pension plan trustees the power, in extreme cases and pursuant to 
regulations published by the Treasury, to reduce benefits in order to 
avoid plan insolvency and increased future reductions.

    So, as I have said before, this is a sobering moment for the 
pension system. And beyond the hardship some retirees inevitably will 
experience, it highlights both the challenge of delivering on the 
promise of lifetime retirement income and the stakes for retirees if 
the system fails.

    So, Mr. Reeder, if confirmed, you will have your work cut out for 
you.

    Once again, I want to welcome both of our nominees today, and I 
look forward to their testimony.

                                 ______
                                 
  Prepared Statement of Hon. Marisa Lago, Nominated to be Deputy U.S. 
Trade Representative, With the Rank of Ambassador, Office of the United 
                      States Trade Representative
    Chairman Hatch, Ranking Member Wyden, Members of the Senate Finance 
Committee, thank you for welcoming me here. It is a tremendous 
privilege to be considered by this Committee as the nominee for Deputy 
United States Trade Representative. Considering the achievements of 
those who have served in this position and the urgency of our nation's 
leadership on trade, it is also humbling to sit before you today. I am 
grateful to President Obama and Ambassador Froman for their confidence 
in me.

    With your permission, I would like to introduce my architect 
husband, Ronald Finiw, who joins me here today. As I've changed jobs 
and moved between cities, Ron has been the constant, the love of my 
life, and my unflagging supporter for the past 41 years.

    I'd also like to recognize two other major influences in my life:

    My mother, Maria Pita, a Spanish immigrant and proud American, who 
        gave me the gift of being raised bilingual;

    And my late father, Louis Lago, child of Spanish immigrants and 
        World War II Navy veteran.

They instilled in me a thirst for learning, and burst with pride when I 
became my family's first college graduate. As a 30-plus year civilian 
employee of the Department of Defense, my father also shared his pride 
in being a public servant--a lesson that has shaped my career in 
federal, state and local government.

    Throughout my time in government, I have seen first-hand the power 
of trade and investment to improve lives. Whether it was in New York, 
where as the President and CEO of the state's economic development 
authority, I was able to help revitalize the decaying Brooklyn 
waterfront where my grandfather had once worked on a tug boat. Or in my 
current role at Treasury, where I have worked with the World Bank and 
regional development banks to increase poor women's access to capital, 
allowing them to build businesses and support communities--and, over 
the long term, create export opportunities for U.S. businesses, small 
and large.

    President Obama and his team at USTR, with the support of this 
Committee and the full Congress in passing the three recent trade 
bills, are pursuing the most ambitious trade agenda in a generation, an 
agenda that is designed to support more good jobs in the United States, 
strengthen the middle class, and build on the gains that we have made 
in recent years.

    Agreements with 11 other countries in the Asia-Pacific region and 
the European Union's 28 Member States are at the heart of this trade 
agenda. Once concluded, the Trans-Pacific Partnership (TPP) and the 
Transatlantic Trade and Investment Partnership (T-TIP) will give the 
United States unfettered access to two-thirds of the global 
marketplace.

    The Obama Administration is also pursuing landmark agreements in 
Geneva that would eliminate tariffs for 90 percent of trade in 
information technology products and environmental goods, as well as 
liberalize services trade with 75 percent of the world's services 
market. These agreements will support additional good-paying jobs in 
sectors where the United States has a competitive advantage.

    These agreements provide an unparalleled opportunity for the United 
States to continue shaping the rules of the road for the world trading 
system. However, if the United States does not adapt our trading system 
to better reflect today's global economic realities, we risk ceding 
leadership to other countries--countries that may not share our 
interests and our values, and that may pursue their own regional 
initiatives with weaker standards for protecting labor, the environment 
and intellectual property.

    The trade deals that our negotiators strike will level the playing 
field for U.S. workers, farmers, ranchers, businesses and service 
providers. I understand full-well, however, from my vantage point at 
Treasury and my prior service at the Securities and Exchange Commission 
that our international agreements require vigilant monitoring and 
enforcement. The Obama Administration has filed 19 complaints at the 
WTO and we have won every one of them. If confirmed, I will work to 
ensure vigorous implementation and enforcement of all of our 
multilateral, regional, and bilateral agreements.

    I must again thank this Committee and Congress for having passed a 
historic trade package--Trade Promotion Authority (TPA), Trade 
Adjustment Assistance, and the Trade Preference Extension Act. These 
are critical steps that will allow us to conclude and enforce high-
standard agreements; give middle-class workers the fair shot that they 
deserve to compete and win in today's global economy; open markets for 
our small businesses and innovators; and support a prosperous future 
for millions throughout sub-Saharan Africa, Central and South America, 
the Caribbean, and the rest of the developing world.

    These are ambitious goals, but as heirs to a long tradition of 
American leadership on trade--leadership that has routinely risen above 
party divisions to advance our nation's interests and values--we should 
aim for nothing less. And thanks to the strong leadership of this 
Committee, trade policy remains among the most promising areas for 
bipartisan cooperation.

    Delivering on these promises depends on close cooperation between 
Congress and the Executive Branch. There will be no TPP and no T-TIP 
without a strong partnership that begins here. Thankfully, with TPA in 
hand, we have the framework for the strong partnership that our nation 
needs to continue leading on trade.

    It would be an honor to help to carry out the marching orders that 
Congress has provided the Obama Administration through TPA. I know that 
this Committee and USTR have a long history of partnership and, if 
confirmed, I commit to maintaining that same level of cooperation.

    Thank you again for the opportunity to appear before you today. I 
am happy to answer any questions that you may have.

                                 ______
                                 

                        SENATE FINANCE COMMITTEE

                  STATEMENT OF INFORMATION REQUESTED 
                               OF NOMINEE

                      A. BIOGRAPHICAL INFORMATION

1.   Name (include any former names used): Lago, Maria Louise (AKA 
Lago, Marisa)

2.   Position to which nominated: Deputy United States Trade 
Representative, with the rank of Ambassador

3.   Date of nomination: November 12, 2014

4.   Address (list current residence, office, and mailing addresses):

5.   Date and place of birth: December 4, 1955; Brooklyn, NY

6.   Marital status (include maiden name of wife or husband's name):

7.   Names and ages of children:

8.   Education (list secondary and higher education institutions, dates 
attended, degree received, and date degree granted):


 
    Educational                                              Dates of
    Institution       Dates attended   Degrees received      degrees
 
Harvard Law School   9/1979-5/1982     J.D. cum laude    5/1982
Brown University     9/1977-12/1977    none              n/a
 (Graduate School;
 Applied Math
 Department)
The Cooper Union     9/1973-5/1977     B.S. Physics      5/1977
Morris Catholic      9/1969-6/1973     Diploma           6/1973
 H.S.                                                     (estimate)
 


9.   Employment record (list all jobs held since college, including the 
title or description of job, name of employer, location of work, and 
dates of employment):


 
 
 
Title:                    Assistant Secretary for International Markets
                           and Development
Employer:                 United States Department of the Treasury
Location:                 1500 Pennsylvania Avenue NW, Washington, DC
                           20220
Dates:                    2/10-present
 
Title:                    Acting United States Director of the European
                           Bank for Reconstruction and Development
Employer:                 United States Department of the Treasury
Location:                 1500 Pennsylvania Avenue NW, Washington, DC
                           20220
Dates:                    12/13-present
Note:                     Position is held simultaneously with my
                           position as Assistant Secretary
 
Title:                    President and CEO (9/08-6/09); Advisor (7/09-2/
                           10)
Employer:                 Empire State Development Corporation (ESDC)
Location:                 633 Third Avenue, NY, NY 10017
Dates:                    9/08-12/09
 
Title:                    Commissioner
Employer:                 New York State Department of Economic
                           Development
Location:                 633 Third Avenue, NY, NY 10017
Dates:                    9/08-6/09
Note:                     Position was held simultaneously with my
                           position as President and CEO of ESDC
 
Title:                    Global Head of Compliance
Employer:                 Citi Markets and Banking (Citigroup, Inc.;
                           Citigroup Global Markets, Inc.)
Location:                 388 Greenwich Street, NY, NY 10013
Dates:                    4/03-9/08
 
Title:                    Director of Global Workforce Development
Employer:                 Citigroup, Inc.
Location:                 390 Park Avenue, NY, NY 10022
Dates:                    8/01-3/03
 
Title:                    Director, Office of International Affairs
Employer:                 U.S. Securities and Exchange Commission
Location:                 100 F Street, NE, Washington, DC 20549
Dates:                    2/97-7/01
 
Title:                    Chief Economic Development Officer & Director,
                           Boston Redevelopment Authority
Employer:                 City of Boston
Location:                 One City Hall Square, Boston, MA 02201
Dates:                    2/94-1/97
Note:                     The two positions were held simultaneously
 
Title:                    General Counsel
Employer:                 New York City Economic Development Corporation
                           (NYC EDC)
Location:                 110 William Street, NY, NY 10038
Dates:                    9/90-2/94
 
Title:                    Senior Vice President for Legal Affairs
Employer:                 New York City Industrial Development Agency
Location:                 110 William Street, NY, NY 10038
Dates:                    1991 (estimate)-2/94
Note:                     Position was held simultaneously with my
                           position as General Counsel of NYC EDC
 
Title:                    Junior Partner; Associate
Employer:                 Nutter, McClennen & Fish
Location:                 World Trade Center West, 155 Seaport
                           Boulevard, Boston, MA 0221O
Dates:                    2/86-8/90 (Junior Partner, 1/88-8/90;
                           Associate, 2/86-12/87)
 
Title:                    Special Assistant to the Chairman
Employer:                 New York City Department of City Planning
Location:                 22 Reade Street, NY, NY 10007
Dates:                    10/83-12/85
 
Title:                    Law Clerk to the Honorable Hugh Bownes
Employer:                 U.S. Court of Appeals for the First Circuit
Location:                 James C. Cleveland Federal Building, 55
                           Pleasant Street, Concord, NH 03301
Dates:                    9/82-8/83
 
Title:                    Summer Associate
Employer:                 Berle, Butzer, Kass & Case (now defunct law
                           firm)
Location:                 45 Rockefeller Plaza, NY, NY 10111
Dates:                    6/82-7/82 (estimate)
 
Title:                    Summer Associate
Employer:                  Cleary Gottlieb Steen & Hamilton LLP
Location:                 One Liberty Plaza, NY, NY 10006
Dates:                    6/81-8/81 (estimate)
 
Title:                    Summer Research Assistant for Professor Lance
                           Liebman
Employer:                 Harvard Law School
Location:                 Harvard Law School, 1563 Massachusetts Ave.,
                           Cambridge, MA 02138
Dates:                    6/80-8/80 (estimate)
 
Title:                    Actuarial Assistant
Employer:                 William M. Mercer
Location:                 99 High Street, Boston, MA 02110
Dates:                    2/78-8/79 (estimate)
 
 


10.   Government experience (list any advisory, consultative, honorary, 
or other part-time service or positions with Federal, State or local 
governments, other than those listed above):

       Member, Massachusetts Housing Partnership

       Member, Clerk, Vice-Chairperson of Scituate (Massachusetts) 
Planning Board

       Member, Scituate (Massachusetts) Housing Partnership

       Member, Scituate (Massachusetts) Fair Housing Committee

11.   Business relationships (list all positions held as an officer, 
director, trustee, partner, proprietor, agent, representative, or 
consultant of any corporation, company, firm, partnership, other 
business enterprise, or educational or other institution):


------------------------------------------------------------------------
                                        Office held (if
             Organization                     any)            Dates
------------------------------------------------------------------------
Empire Stale Development Corporation    President and    9/08-6/09
 (ESDC)                                  CEO
------------------------------------------------------------------------
Citigroup                               Managing         4/03-9/08
                                         Director
------------------------------------------------------------------------
Citigroup                               Director         8/01-3/03
------------------------------------------------------------------------
Boston Redevelopment Authority          Director         2/94-1/97
------------------------------------------------------------------------
New York City Economic Development      General Counsel  9/90-2/94
 Corporation
------------------------------------------------------------------------
New York City Industrial Development    Senior Vice      1991 (est.)-2/
 Agency                                  President        94
------------------------------------------------------------------------
Nutter, McClennen & Fish                Junior Partner   1/88-8/90
------------------------------------------------------------------------

12.   Memberships (list all memberships and offices held in 
professional, fraternal, scholarly, civic, business, charitable, and 
other organizations):


------------------------------------------------------------------------
                                        Office held (if
             Organization                     any)            Dates
------------------------------------------------------------------------
Cooper Union Engineering Advisory       Member           11/98-2/10
 Council
------------------------------------------------------------------------
NYC Investment Partnership              Member, Board    3/09-6/09
                                         of  Directors
------------------------------------------------------------------------
Lower Manhattan Cultural Council        Member, Board    4/06-8/08
                                         of  Directors
------------------------------------------------------------------------
Enterprise Foundation                   Member,          2002-2005
                                         Advisory Board
------------------------------------------------------------------------
Hannah House                            Member, Board    1997-6/01
                                         of  Directors
------------------------------------------------------------------------
Women's Forum of Washington             Member           1997-2001
                                                          (estimate)
------------------------------------------------------------------------
Massachusetts Women's Forum             Member           1994-1997
------------------------------------------------------------------------
Fannie Mae Housing Impact Advisory      Member           1995-1997
 Council
------------------------------------------------------------------------
Boston Management Consortium            Director         1995-1/97
------------------------------------------------------------------------
National Economic Development and Law   Member, Board    1991-1994
 Center; currently called the  Insight   of  Directors
 Center for Community Economic
 Development
------------------------------------------------------------------------
Association of the Bar of the City of   Member;          1991 (estimate)-
 New York                                Committee on     1/94
                                         Real Property
                                         Law & Special
                                         Committee on
                                         Government
                                         Counsel
------------------------------------------------------------------------
Massachusetts Housing Partnership       Member           1990
------------------------------------------------------------------------
(Boston) Metropolitan Area Planning     Member           1987-1990
 Council (MAPC)
------------------------------------------------------------------------
(Boston) South Shore Coalition (an      Member (87-90);  1987-1990
 affiliate of MAPC)                      Clerk (88-89);
                                         Vice-
                                         Chairperson
                                         (88-90)
------------------------------------------------------------------------
Scituate (Massachusetts) Planning       Member (87-90);  1987-1990
 Board                                   Clerk (87-88);
                                         Vice-
                                         Chairperson
                                         (88-90)
------------------------------------------------------------------------
Scituate (Massachusetts) Housing        Member           1988-1990
 Partnership and Scituate Fair Housing
 Committee
------------------------------------------------------------------------
Boston Bar Association (BBA)            Member;          1986-1990
                                         Committee on     P(estimate)
                                         Real Property
                                         Law,
                                         Environmental
                                         Committee, and
                                         Special
                                         Committee on
                                         Minorities in
                                         the Profession
------------------------------------------------------------------------
Lawyers Clearinghouse on Affordable     Member           1987-1990
 Housing and Homelessness (Joint                          P(estimate)
 project of BBA & Massachusetts Bar
 Association)
------------------------------------------------------------------------
Boston Law Firm Group; currently        Representative   1986-1990
 called the Boston Lawyers Group         of the law       P(estimate)
                                         firm Nutter
                                         McClennen &
                                         Fish, my then-
                                         employer
------------------------------------------------------------------------
Scituate (Massachusetts) Democratic     Member           1988
 Town Committee
------------------------------------------------------------------------


13.   Political affiliations and activities

      a.  List all public offices for which you have been a candidate:

       Scituate (Massachusetts) Planning Board; Member (87-90); Clerk 
(87-88); Vice-Chair (88-90)

      b.  List all memberships and offices held in and services 
rendered to all political parties or election committees during the 
last 10 years:

      None

      c.  Itemize all political contributions to any individual, 
campaign organization, political party, political action committee, or 
similar entity of $50 or more for the past 10 years:

 
                     Name                           Date        Amount
 
Friends of Tom Carper                                8/5/05       $2,000
Citigroup PAC--Federal                             12/29/05       $5,000
Democratic Senatorial Campaign Committee            4/20/06       $2,500
Friends of Hillary                                   6/7/06       $1,000
Citigroup PAC--Federal                              8/14/06       $5,000
Friends of Chris Dodd                                1/2/07       $2,100
Rangel For Congress                                 3/30/07       $2,000
The Reed Committee                                   6/7/07         $500
Citigroup PAC--Federal                              6/14/07       $5,000
The Reed Committee                                  6/21/07         $500
Friends of Max Baucus                               9/14/07       $2,300
Hillary Clinton for President                       10/5/07       $2,300
The Reed Committee                                   3/2/08       $2,300
Udall for Colorado                                  4/22/08         $500
Citigroup PAC--Federal                              5/15/08         $208
Friends of Rahm Emanuel                             5/30/08       $2,300
Citigroup PAC--Federal                              5/30/08         $208
Citigroup PAC--Federal                              6/15/08         $208
Citigroup PAC--Federal                              6/30/08         $208
Friends of Gregory Meeks                             7/2/08       $2,300
Citigroup PAC--Federal                              7/15/08         $208
Obama for America                                   7/30/08       $1,000
Citigroup PAC--Federal                              7/31/08         $208
Citigroup PAC--Federal                              8/15/08         $208
Citigroup PAC--Federal                              8/29/08         $208
Obama for America                                   8/31/08       $1,300
Citigroup PAC--Federal                              9/15/08         $208
Democratic National Committee                      11/13/08         $100
Deval Patrick for Governor                          9/02/09         $500
Obama for America                                  12/31/11         $100
Obama for America                                   6/29/12       $1,000
Obama for America                                   10/2/12         $250
Presidential Inaugural Committee                     8/1/13         $150
 


14.   Honors and Awards (list all scholarships, fellowships, honorary 
degrees, honorary society memberships, military medals, and any other 
special recognitions for outstanding service or achievement):


------------------------------------------------------------------------
              Description                     Dates (If applicable)
------------------------------------------------------------------------
The Cooper Union: Presidential          1996
 Citation
------------------------------------------------------------------------
German Marshall Fund, Fellowship for    1989
 International Environmentalists
------------------------------------------------------------------------
National Science Foundation: Honorable  1977
 Mention
------------------------------------------------------------------------
The Cooper Union: Full tuition          1973-1977
 scholarship for 4 years of
 undergraduate education
------------------------------------------------------------------------
Sigma Pi Sigma (national physics honor  1976-1977 (estimate)
 society)
------------------------------------------------------------------------
Morris Catholic High School:            1973
 valedictorian
------------------------------------------------------------------------


15.   Published writings (list the titles, publishers, and dates of all 
books, articles, reports, or other published materials you have 
written):

       I have done my best to identify all of my published writings, 
including through a review of personal files and searches of publicly 
available electronic databases. Despite my searches, there may be other 
materials I have been unable to identify, find, or remember.

       U.S. Department of the Treasury blog post, 4/12/13. 
``Opportunity for Youth is the Key to Haiti's Future''

       U.S. Department of the Treasury blog post, 4/20/12. ``A Visit to 
Rwanda's Land Husbandry, Water Harvesting, and Hillside Irrigation 
Project''

       U.S. Department of the Treasury blog post, 11/07/11. ``Women: 
The Key to Development Solutions''

       U.S. Department of the Treasury blog post, 09/21/11. ``The 
Impact of the World Bank and Multilateral Development Banks on National 
Security''

       U.S. Department of the Treasury blog post, 12/29/10. 
``Development Dividends: Emerging Africa''

       Association of the Bar of the City of New York, Real Property 
Committee, 1992. Seminar on ``Hazardous Materials Issues in Real Estate 
Transactions: Negotiation of Commercial Documentation.'' Course 
Materials: ``Environmental Clean-Ups: Who's Liable Now?''

       Massachusetts Continuing Legal Education, 1990. Course 
materials: ``Important New Developments in Wetlands and Waterways 
Regulation.''

       Massachusetts Continuing Legal Education, 1989. Course materials 
published as ``Massachusetts Zoning Manual: Nonconforming Uses and 
Structures.''

16.   Speeches (list all formal speeches you have delivered during the 
past 5 years which are on topics relevant to the position for which you 
have been nominated):

       I have done my best to identify all formal speeches relevant to 
the position during the last 5 years, including through a review of 
personal files and searches of publicly available electronic databases. 
Despite my searches, there may be other materials I have been unable to 
identify, find, or remember.

Remarks of Assistant Secretary Lago at the Seminar on the U.S. 
Regulatory and Institutional Environment for Chinese Foreign Direct 
Investment, September 25, 2013

Remarks of Assistant Secretary for International Markets and 
Development Marisa Lago at the 2012 Caixin Summit, November 21, 2012

Assistant Secretary of the Treasury Marisa Logo Speaks to Chines 
Companies about the United States Open Investment Policy and CFIUS, 
November 15, 2012

Remarks by Assistant Secretary for International Markets and 
Development Marisa Lago at the Annual Meeting of the African 
Development Bank, May 31, 2012

Remarks by Assistant Secretary for International Markets and 
Development Marisa Lago at the 53rd Annual Meeting of the Inter-
American Development Bank Group, March 19, 2012

Remarks by Assistant Secretary Marisa Lago on ``America's Continued 
Commitment to Open Investment,'' November 14, 2011

Remarks by Assistant Secretary Marisa Lago to the Institute of 
International Bankers, September 26, 2011

Remarks by Assistant Secretary Marisa Lago at a Georgetown University 
and PwC Conference on ``Financial Institutions in the New Regulatory 
Environment: Opportunities, Constraints, and Global Challenges,'' 
September 22, 2011

Written Testimony of the Treasury Assistant Secretary Marisa Lago 
before the House Financial Services Subcommittee on International 
Monetary Policy and Trade, September 21, 2011

Statement by U.S. Governor at the European Bank for Reconstruction and 
Development's Twentieth Annual Meeting of the Boards of Governors, May 
19, 2011

Statement by the U.S. Governor, Treasury Assistant Secretary Marisa 
Lago, May 5, 2011

Assistant Secretary Marisa Lago's Remarks at Welcome Ceremony for U.S.-
China Initiative on City-Level Economic Cooperation, April 19, 2011

Remarks by Assistant Secretary Marisa Lago on International Financial 
Regulatory Reform, April 12, 2011

U.S. Governor's Speech by Assistant Secretary Marisa Lago at the IDB 
Annual Meeting 2011, March 28, 2011

Remarks by Assistant Secretary Marisa Lago to the Partnership to End 
Hunger and Poverty in Africa's Annual Forum, March 1, 2011

Assistant Secretary for International Markets and Development Marisa 
Lago Introductory Comments for Eurofi Panel Discussion of ``Prospects 
of Future G-20 Discussions and Expected Impacts for the EU,'' September 
30, 2010

Testimony of Marisa Lago, Assistant Secretary of the Treasury for 
International Markets and Development before the Senate Foreign 
Relations Committee and the House Ways and Means Committee, September 
15, 2010

Assistant Secretary Marisa Lago Statement at the 45th Annual Meeting of 
the Board of Governors of the African Development Bank, May 28, 2010

Prepared Statement by U.S. Governor Marisa Lago at the European Bank 
for Reconstruction and Development's Nineteenth Annual Meeting of the 
Boards of Governors, May 18, 2010

Assistant Secretary Lago's Statement Asian Development Bank 43rd annual 
meeting Tashkent, Uzbekistan, May 3, 2010

Assistant Secretary Marisa Lago Address to the Plenary Session of the 
Inter-
American Development Bank Annual Meeting, Cancun, Mexico, March 22, 
2010

17.   Qualifications (state what, in your opinion, qualifies you to 
serve in the position to which you have been nominated):

       Over the years, I have acquired broad experience in diverse 
areas that will serve me well if confirmed as Deputy United States 
Trade Representative. My areas of expertise include: international 
economic diplomacy; national security; international development 
assistance; international financial services regulation; international 
financial services; federal, state and municipal governance and policy; 
and leadership and management of large, complex initiatives and 
organizations. Throughout my career I have maintained a strong 
commitment to public service and community involvement.

U.S. Department of the Treasury:  Assistant Secretary for International 
Markets and Development

In my current position (2010 to present), I lead Treasury's role on the 
Committee on Foreign Investment in the United States and direct 
Treasury's portfolio on international development assistance, technical 
assistance, international financial services regulation and trade in 
financial services.

U.S. Securities and Exchange Commission:  Director, Office of 
International Affairs

From 1997 to 2001, I headed the Office of International Affairs for the 
U.S. Securities and Exchange Commission. As the head of the office 
responsible for all aspects of the SEC's international activities, I 
played a key role in numerous international initiatives involving: 
trade in financial services; international accounting standards; 
regulation of financial conglomerates; corporate governance; securities 
activities on the Internet; and enhancing financial regulation in off-
shore financial centers. I also represented the SEC with the securities 
and banking regulators in both developed and emerging markets in 
activities such as: negotiating Memoranda of Understanding with foreign 
authorities; obtaining evidence from abroad and responding to foreign 
requests for assistance; rendering advice concerning international 
matters to SEC Commissioners and staff; coordinating international 
initiatives with other SEC divisions, U.S. government agencies, and 
foreign authorities; crafting proposals for legislative changes 
relating to the SEC's international activities; and providing 
international technical assistance.

Citigroup Markets and Banking:  Global Head of Compliance

From 2003 to 2008, I was the Global Head of Compliance for Citigroup's 
corporate and investment bank. While there, I was responsible for 
compliance matters for Citigroup's Markets and Banking businesses 
including: investment and corporate banking; sales and trading of 
equities, fixed income, currencies and commodities; public finance; and 
transaction services. I led a team of over 500 employees, located in 
over 80 countries, with an annual budget in excess of $100,000,000. I 
was a Member of the Citigroup Management Committee, and held Series 24 
and 14 securities licenses.

Empire State Development Corporation:  President and CEO
New York State Department of Economic Development:  Commissioner

As the head of New York's chief economic development agency, I pushed 
forward important small business initiatives, tourism programs, 
industry retention negotiations and long-term development projects 
including the revitalization of Erie Canal Harbor in Buffalo, the 
expansion and renovation of the Jacob Javits Convention Center in 
Manhattan, and the construction of Brooklyn Bridge Park.

Boston Redevelopment Authority:  Director
City of Boston:  Chief Economic Development Officer

As Boston's Chief Economic Development Officer from 1994 to 1997, I 
headed the Boston Redevelopment Authority, which is responsible for 
city planning, zoning, real estate development, and real estate 
finance. I was also responsible for several other city agencies that 
provided the city's public housing, affordable housing, neighborhood 
development and job training. All together I managed 16 million square 
feet (400 acres) of municipally owned land, 60,000 public housing 
tenants (10% of the city population), 1,300 employees and a budget of 
over $300,000,000.

New York City Economic Development Corporation:  General Counsel

From 1990 to 1994, I was General Counsel of the New York City Economic 
Development Corporation (EDC), a city-funded public benefit corporation 
responsible for commercial, industrial and waterfront development. In 
this role, I negotiated a retention deal to prevent out-of-state 
relocation of commodities exchanges and leased city park land to the 
U.S. Tennis Association for a new U.S. Open tennis stadium.

Other Experience

In the mid-1980s, I was Special Assistant to the Chairman of the New 
York City Planning Commission. I began my legal career as a law clerk 
to the Honorable Hugh. H. Bownes of the U.S. Court of Appeals for the 
First Circuit. In the late 1980s, I became a Junior Partner in the Real 
Estate Development and Finance Department of the Boston law firm, 
Nutter McClennen and Fish. I earned a J.D. cum laude from Harvard Law 
School in 1982, and a B.S. in physics from Cooper Union in 1977.

Throughout my career, I have been committed to outside civic 
activities. These have included service on the Board of Directors of 
the Lower Manhattan Cultural Council, the Advisory Board of the 
Enterprise Foundation, the Housing Impact Advisory Council of Fannie 
Mae, and the Board of Directors of the National Economic Development 
and Law Center.

I am fluent in Spanish, which has been helpful in both my international 
and domestic positions.

                   B. FUTURE EMPLOYMENT RELATIONSHIPS

1.   Will you sever all connections with your present employers, 
business firms, associations, or organizations if you are confirmed by 
the Senate? If not, provide details.

       No. I will continue the connections of my current government 
position in my new government position if confirmed.

2.   Do you have any plans, commitments, or agreements to pursue 
outside employment, with or without compensation, during your service 
with the government? If so, provide details.

       No.

3.   Has any person or entity made a commitment or agreement to employ 
your services in any capacity after you leave government service? If 
so, provide details.

       No.

4.   If you are confirmed by the Senate, do you expect to serve out 
your full term or until the next Presidential election, whichever is 
applicable? If not, explain.

       Yes.

                   C. POTENTIAL CONFLICTS OF INTEREST

1.   Indicate any investments, obligations, liabilities, or other 
relationships which could involve potential conflicts of interest in 
the position to which you have been nominated.

       None.

2.   Describe any business relationship, dealing or financial 
transaction which you have had during the last 10 years, whether for 
yourself, on behalf of a client, or acting as an agent, that could in 
any way constitute or result in a possible conflict of interest in the 
position to which you have been nominated.

       None.

3.   Describe any activity during the past 10 years in which you have 
engaged for the purpose of directly or indirectly influencing the 
passage, defeat, or modification of any legislation or affecting the 
administration and execution of law or public policy. Activities 
performed as an employee of the Federal government need not be listed.

       None.

4.   Explain how you will resolve any potential conflict of interest, 
including any that may be disclosed by your responses to the above 
items. (Provide the Committee with two copies of any trust or other 
agreements.)

       In connection with the nomination process, I have consulted with 
the Office of Government Ethics and the designated agency ethics 
official to identify potential conflicts of interest. Any potential 
conflicts of interest will be resolved in accordance with the terms of 
an ethics agreement. I am not aware of any current potential conflicts.

5.   Two copies of written opinions should be provided directly to the 
Committee by the designated agency ethics officer of the agency to 
which you have been nominated and by the Office of Government Ethics 
concerning potential conflicts of interest or any legal impediments to 
your serving in this position.

       USTR's Designated Ethics Official has determined that I have no 
potential conflicts of interest.

6.   The following information is to be provided only by nominees to 
the positions of United States Trade Representative and Deputy United 
States Trade Representative:

       Have you ever represented, advised, or otherwise aided a foreign 
government or a foreign political organization with respect to any 
international trade matter? If so, provide the name of the foreign 
entity, a description of the work performed (including any work you 
supervised), the time frame of the work (e.g., March to December 1995), 
and the number of hours spent on the representation.

       No.

                       D. LEGAL AND OTHER MATTERS

1.   Have you ever been the subject of a complaint or been 
investigated, disciplined, or otherwise cited for a breach of ethics 
for unprofessional conduct before any court, administrative agency, 
professional association, disciplinary committee, or other professional 
group? If so, provide details.

       No.

2.   Have you ever been investigated, arrested, charged, or held by any 
Federal, State, or other law enforcement authority for a violation of 
any Federal, State, county or municipal law, regulation, or ordinance, 
other than a minor traffic offense? If so, provide details.

       No.

3.   Have you ever been involved as a party in interest in any 
administrative agency proceeding or civil litigation? If so, provide 
details.

       Yes. I believe that I have been a party, in my official capacity 
only (and not as an individual), to lawsuits challenging the actions of 
the following entities:

     Empire State Development Corporation

     New York State Department of Economic Development

     Boston Redevelopment Authority

     New York City Economic Development Corporation

     Scituate Planning Board

       The records of any such lawsuits are available from the general 
counsel of each of these entities.

       The following are the only times that I have been sued in my 
personal capacity for activities related to my public service:


          WHILE EMPLOYED BY THE BOSTON REDEVELOPMENT AUTHORITY:
------------------------------------------------------------------------
 
------------------------------------------------------------------------
Court:                       Proceeding:    Role:          Date filed:
Suffolk (Massachusetts)      Civil action   Defendant      5/1997
 Superior Court Civil
 Docket #SUCV97-02875C
------------------------------------------------------------------------
Comments:
The plaintiff alleged employment discrimination, interference with
 constitutional rights, violation of Massachusetts Equal Rights Act and
 intentional interference with advantageous relations. Case against
 Marisa Lago was dismissed for failure to state a claim.
------------------------------------------------------------------------
Agency:                      Proceeding:    Role:          Date filed:
Massachusetts Commission     Administrativ  None           Unknown
 Against Discrimination       e
 (MCAD)
------------------------------------------------------------------------
Comments:
The plaintiff in the case above also filed a related administrative
 claim with the Massachusetts Commission Against Discrimination (MCAD).
 I have no further information about the MCAD claim, and believe that it
 was dismissed.
------------------------------------------------------------------------



              WHILE SERVING ON THE SCITUATE PLANNING BOARD:
------------------------------------------------------------------------
 
------------------------------------------------------------------------
Court:                       Proceeding:    Role:          Date filed:
Plymouth (Massachusetts)     Civil action   Defendant      1990 (est.)
 Superior Court Civil
 Docket C.A. #90-1761B
 (Loretta E. Darien et al.
 v. Thomas Bledsoe et al.)
------------------------------------------------------------------------
Comments:
The case was a challenge by the proponents of an animal shelter of the
 action of the Scituate (Massachusetts) Planning Board (SPB) in denying
 a site plan approval/special permit. The suit, which named both the SPB
 and each individual SPB member, was dropped by the plaintiffs.
------------------------------------------------------------------------


       The following are the only times that I have been a party in my 
personal capacity:

                        IN MY PERSONAL CAPACITY:
------------------------------------------------------------------------
 
------------------------------------------------------------------------
Court:                       Proceeding:    Role:          Date filed:
Suffolk (Massachusetts)      Civil action   Plaintiff      10/1994
 Superior Court Civil
 Docket #94-5219
------------------------------------------------------------------------
Comments:
The case was a dispute regarding proposed development of land adjacent
 to my then-home. I challenged the action of the Massachusetts
 Department of Environmental Protection (DEP) in affirming the granting
 of an Order of Conditions (0 of C) by the Scituate (Massachusetts)
 Conservation Commission (SCC), acting as an arm of the Commonwealth of
 Massachusetts under the Massachusetts Wetlands Protection Act. The
 matter arose from the attempt of a speculator to build on an
 unbuildable lot located adjacent to my then-home. Development permits
 were denied (which was the result that I sought).
 
------------------------------------------------------------------------
 
Court:                       Proceeding:    Role:          Date filed:
Plymouth (Massachusetts)     Civil action   Plaintiff      12/1993
 Superior Court Civil                                       (est.)
 Docket #93-0927B
------------------------------------------------------------------------
Comments:
This is a case related to the previous case. I believe that I was the
 named plaintiff, but do not have records of this case. Also, I believe
 that there may have also been related administrative proceedings before
 the DEP, SCC and Scituate Buildings Department. I do not have records
 of any such proceedings.
------------------------------------------------------------------------
Court:                       Proceeding:    Role:          Date filed:
US Tax Court Docket #33526-  Civil action   Defendant      1987 (est.)
 87``S''
------------------------------------------------------------------------
Comments:
For the 1984 tax year, the IRS alleged a deficiency in my return (Joint
 return with spouse). We challenged this determination. A decision
 entered on June 6, 1988 found that there was no deficiency and no taxes
 due.
------------------------------------------------------------------------
Court:                       Proceeding:    Role:          Date filed:
Unknown New York Court        Civil action  Plaintiff      1975 (est.)
------------------------------------------------------------------------
Comments:
Challenge (along with a number of my classmates who were then Physics
 majors at Cooper Union) to the decision by Cooper Union to terminate
 the Physics program. I believe that plaintiffs dropped the challenge.
------------------------------------------------------------------------


4.   Have you ever been convicted (including pleas of guilty or nolo 
contendere) of any criminal violation other than a minor traffic 
offense? If so, provide details.

      No.

5.   Please advise the Committee of any additional information, 
favorable or unfavorable, which you feel should be considered in 
connection with your nomination.

      None.

                     E. TESTIFYING BEFORE CONGRESS

1.   If you are confirmed by the Senate, are you willing to appear and 
testify before any duly constituted committee of the Congress on such 
occasions as you may be reasonably requested to do so?

      Yes.

2.   If you are confirmed by the Senate, are you willing to provide 
such information as is requested by such committees?

      Yes.

                                 ______
                                 
         Questions Submitted for the Record to Hon. Marisa Lago
               Questions Submitted by Hon. Orrin G. Hatch
    Question. One of the significant problems for U.S. services 
companies working to expand into foreign markets and compete globally 
is that an increasing number of governments are considering or imposing 
data server localization requirements. In TPA, we required that the 
Administration ``ensure that governments refrain from implementing 
trade-related measures that impede digital trade in goods and services, 
restrict cross-border data flows, or require local storage or 
processing of data.'' This committee, in the report accompanying the 
TPA bill, wrote that we expect U.S. negotiators to pursue protections 
from foreign governments imposing data localization requirements for 
all sectors, including financial services.

    We are concerned that the administration continues to carve out 
financial services from data server localization requirement 
protections. If confirmed, will you ensure that all sectors, including 
financial services, are protected against localization requirements?

    Answer. The significant increase in localization barriers to trade 
around the world is of serious concern to the Obama Administration. We 
are advancing efforts to reduce and prevent the proliferation of 
localization barriers to trade, including restrictions on data flows 
and requirements to establish infrastructure domestically, through the 
full range of bilateral, multilateral, and regional forums, including 
the WTO, APEC, and the OECD. Trade agreements are an important means 
for ensuring that the Internet and the commercial ecosystem it supports 
remains open and can grow and thrive.

    U.S. firms lead the world in IT innovation and maintain a 
competitive advantage by being at the edge of that evolution, as both 
users and suppliers of advanced technology. We recognize that it is a 
significant burden for our companies to be forced to build data centers 
in every market they serve: a burden in cost; reliability; and 
flexibility. I understand that USTR has advanced new trade provisions 
in TPP to address concerns related to data localization. In supporting 
these objectives, we have been pressing for robust provisions in 
financial services to allow financial services providers the 
flexibility to transfer data abroad and engage in cross-border data-
processing. However, our financial regulators have raised strong 
concerns about provisions that could hamper effective regulation and 
supervision of financial markets and institutions by, for example, 
limiting their ability to access books and records in a timely fashion. 
The Administration's approach to financial services seeks to strike a 
balance between our regulators' needs for access to supervisory 
information and our companies' commercial interests in processing data 
on a cross-border basis.

    Question. I am very concerned about the state of intellectual 
property rights protections around the world, including in developing 
countries, I do not believe it serves these countries and the goal of 
economic development to turn a blind eye to IPR violations. As you 
know, the AGOA program explicitly lists the protection of intellectual 
property among the eligibility criteria.

    The reauthorization of AGOA Congress recently passed includes a 
requirement that the administration conduct an out-of-cycle review of 
South Africa's compliance with the program's eligibility criteria. I 
remain concerned with the state of IPR protections in South Africa 
after their release of a Draft Intellectual Property Policy that 
includes a proposal for the inappropriate use of compulsory licensing.

    While all the eligibility criteria are important, can you assure me 
that, if you are confirmed, intellectual property protections will be 
closely examined in this out-of-cycle review and in subsequent annual 
reviews?

    Answer. The Administration has consistently made clear to South 
Africa that its continuing participation in AGOA depends on its ability 
to eliminate barriers to U.S. trade and investment, including by the 
protection of intellectual property, which ultimately will play a 
central role in South Africa's ability to attract investment and allow 
innovation to thrive. South Africa recently retracted its Draft 
Intellectual Property Policy due to stakeholder concerns and has not 
yet released a revised draft policy for public comment. However, we are 
continuing to closely monitor intellectual property protections in 
South Africa and, if confirmed, I will work to ensure that South Africa 
complies with AGOA eligibility criteria, both within the context of the 
out-of-cycle review and in subsequent reviews.

    Question. Congress let the Andean Trade Preferences Program (ATPA) 
expire in July 2013. At that time, Ecuador was the only remaining ATPA 
beneficiary. Many in Congress felt then that Ecuador no longer deserved 
special trade preferences given its very poor record in honoring its 
international obligations, including the U.S.-Ecuador Bilateral 
Investment Treaty; its crackdown on the independent press; and its lack 
of cooperation with the United States in fighting narcotics, among 
other reasons. Ecuador's record in these areas is worse today than it 
was 2 years ago. And yet Ecuador is back before USTR seeking to expand 
its GSP benefits to make up some of the trade preferences it lost when 
ATPA expired. In my view, this would be trying to do an end run around 
Congress.

    Will you ensure that USTR rejects any attempt by Ecuador to expand 
its GSP benefits to ensure that this end run does not succeed?

    Answer. I understand that there are two GSP actions pending with 
respect to Ecuador. First, the government of Ecuador submitted 
petitions in 2012 to add 10 additional products to the GSP program for 
all GSP beneficiary countries. These 10 products had previously entered 
the United States duty-free under ATPA. The GSP subcommittee accepted 
three of these product petitions for review: those covering fresh cut 
roses, frozen broccoli, and preserved artichokes. Other interested 
parties, including representatives of more than 20 U.S. companies and 
organizations, also submitted comments in favor of adding these three 
products to the GSP program.

    With respect to the second GSP action, USTR accepted for review a 
country practice petition to remove Ecuador from the GSP program due to 
issues related to recognition and enforcement of arbitral awards. The 
GSP Subcommittee's review of both petitions was halted when the GSP 
program lapsed. However, with the recent reauthorization of the GSP 
program, I understand that the GSP Subcommittee has resumed its review 
of both petitions.

    If confirmed, I will ensure that, before any recommendation is made 
to the President on either issue involving Ecuador, USTR fully 
considers the matter, including all comments received, to ensure that 
the statutory criteria set by Congress for such reviews are followed.

    Question. I requested a letter describing your portfolio if you are 
confirmed by the Senate. From the very brief response I received, I 
understand that you will be covering labor, environment, textiles, 
small business, market access, and industrial competitiveness. I also 
understand you will not be taking the role of lead negotiator in any of 
the United States' ongoing negotiations.

    Please explain what you anticipate your duties will be in each of 
these areas.

    Answer. In addition to the issues that you listed, if confirmed, I 
expect to be responsible for trade and investment issues related to the 
Western Hemisphere and Africa. With respect to all of the issues--
geographic and functional--within my portfolio, I will prioritize 
effective implementation and enforcement of our existing agreements as 
well as any new agreement approved by Congress. Having worked at the 
Securities and Exchange Commission, I value effective enforcement and 
fully understand the importance of ensuring that our trading partners 
live up to the commitments that they have made in our trade agreements.

    If confirmed, I will work closely with other U.S. agencies to take 
a whole of government approach to monitoring our partners' compliance 
with these commitments. I will also work closely with you and other 
Members as we carry out this critical function, and will ensure that we 
are coordinated with key stakeholders by seeking their input on an 
ongoing basis.

    Question. I am very pleased that the Congress has, at last, 
reauthorized the Generalized System of Preferences (GSP) program. As 
you know, this program provides tariff reductions for developing 
countries and supports manufacturing in the United States.

    The program is vital for the economies of many countries in the 
Western Hemisphere that do not have trade agreements with the United 
States. However, not all of the countries benefiting from the program 
are living up to the standards in the program. For example, Argentina 
has failed to live up to international arbitral awards regarding 
defaulted debts.

    How will you address issues in implementing the GSP program such as 
this? Do you think it's appropriate for countries which are not living 
up to the requirements of the GSP program to receive benefits?

    Answer. All GSP beneficiary countries must live up to the statutory 
country eligibility criteria, including the recognition and enforcement 
of arbitral awards. If confirmed, I will continue to ensure that GSP 
beneficiary countries adhere to the eligibility criteria. Where a 
beneficiary country fails to meet them, the U.S. Trade Representative 
would recommend that the President remove that country from the GSP 
program, as was done with Argentina in 2012 and Bangladesh in 2013.

    Regarding Argentina, in March 2012 President Obama suspended 
Argentina's eligibility for trade benefits under the GSP program 
because Argentina failed to enforce arbitral awards with respect to two 
U.S. companies. Although the government of Argentina subsequently 
reached a settlement with the two U.S. companies in October 2013, there 
is currently no prospect of Argentina being considered for 
reinstatement of GSP benefits because the World Bank has classified 
Argentina as a ``high-income'' economy. Under the GSP statute, 
countries that the World Bank classifies as ``high income'' may not be 
considered for eligibility.

                                 ______
                                 
                 Questions Submitted by Hon. Ron Wyden
    Question. Ms. Lago--you have a portfolio that includes labor and 
environmental issues. As you may know, the TPA bill we recently enacted 
directs USTR to obtain strong labor and environment rules in trade 
agreements. But all things trade related are only as good as their 
enforcement.

    Please outline how you will ensure that our trading partners live 
up to their obligations in these areas, and specifically the role that 
you will play in ensuring that our TPP partners are in compliance with 
their obligations.

    Answer. The Obama Administration places a high priority on the 
effective implementation and enforcement of all aspects of our trade 
agreements, including those on labor and environment. In the TPP 
context, the Administration insisted that labor and environment 
obligations be included in the core text of the agreement and be 
enforceable by the same procedures as commercial disputes. If 
confirmed, I intend to ensure that USTR continues to make enforcement 
of labor and environment rules a top priority. Having worked at the 
Securities and Exchange Commission, I value effective enforcement and 
fully understand the importance of ensuring that our trading partners 
live up to the commitments that they have made in our trade agreements. 
If confirmed, I will work closely with other U.S. agencies to take a 
whole of government approach to monitoring our trading partners' 
compliance with their commitments. I will also work closely with you 
and other Members as we carry out this critical function, and will 
ensure that we are coordinated with key stakeholders by seeking their 
input on an ongoing basis.

    Question. Ms. Lago--as Deputy USTR you will be in charge of the 
Trade Representative's issues surrounding market access. I'm a big 
believer in the transformational power of the Internet and think that 
we should do everything we can to export our digital goods and 
services--and our belief in free expression and the exchange of ideas.

    Please discuss your priorities regarding digital goods and services 
market access.

    Answer. I see trade agreements as a vital means for ensuring that 
the Internet and the commercial ecosystem it supports remain open and 
can grow and thrive. Any meaningful trade agenda for the United States 
must reflect our interests in the digital economy for both goods and 
services. That is why USTR seeks to include a range of provisions in 
ongoing trade negotiations, including TPP, T-TIP, and TiSA, aimed at 
enhancing opportunities for digital trade. Chief among these are:

      A ``negative list'' approach to services and investment (all 
sectors are covered unless a trading partner negotiates to exclude a 
sector or subsector), which is critical to promoting innovative and 
fast-changing services such as Internet-based services;
      A prohibition on imposing tariffs on content transmitted 
electronically;
      Non-discriminatory treatment of content distributed 
electronically into markets of a trade partner;
      An affirmative obligation to permit cross-border data flows; and
      A prohibition on requiring the use of local computing facilities 
for covered services.

    The digital economy is an area of unparalleled strength for the 
United States, but its continued growth, and contribution to U.S. jobs 
and innovation depend deeply on a liberalized global environment. To 
that end, I would note the agreement that USTR reached with more than 
50 partners in Geneva earlier this month to eliminate tariffs on more 
than 200 technology products. An expanded Information Technology 
Agreement (ITA) will be the first major tariff-eliminating deal at the 
WTO in 18 years and estimates from industry show that this breakthrough 
could support up to 60,000 additional American jobs.

    If confirmed, I will work to ensure that we strive to keep the 
Internet as open as possible as a platform for commerce and the 
exchange of ideas, both through trade initiatives that we pursue and 
through vigilant enforcement of existing trade obligations.

    Question. U.S. intellectual property law strikes a balance to 
promote innovation, preserve free speech and support economic dynamism 
on the Internet. As you may know, I have opposed policies that would 
ossify the creative economy and censor the Internet. Many of our 
foreign trading partners are still developing their legal frameworks 
around intellectual property and the Internet. Technology and an open 
Internet can be an economic boon, particularly to our developing 
country partners in the Americas and Africa.

    Will you commit to promoting balanced intellectual property, 
including copyright, frameworks abroad that reflect all sides of U.S. 
law and to ensuring that the Internet remains an equal opportunity 
platform for free speech and economic growth, and how will you further 
those goals?

    Answer. Consistent with USTR's current engagement on IPR with our 
trading partners, I will, if confirmed, promote strong and balanced IPR 
protection and enforcement in a manner that reflects U.S. law. The U.S. 
copyright system is an engine of free expression and a major building 
block in the world economy. It plays a critical role in promoting and 
disseminating American works of authorship, and the balance of rights 
and exceptions and limitations achieved in U.S. law provides diverse 
benefits for large and small businesses, consumers, authors, artists, 
and workers in the information, entertainment, and technology sectors. 
A robust copyright framework ensures that innovators and creators are 
respected and that investments (both intellectual and financial) are 
promoted. Such a framework also ensures that limitations and exceptions 
provide an appropriate balance, and that enforcement measures are 
effective.

                                 ______
                                 
                Questions Submitted by Hon. Rob Portman
    Question. As you may know, the Nicaragua Trade Preference Level 
(TPL) expired at the end of last year and despite numerous pieces of 
trade legislation being signed into law recently, TPL renewal was not 
included. The Nicaragua TPL has enabled certain types of garments to be 
competitively produced in the CAFTA-DR region. At the same time, the 
special provision on woven trousers, which is part of the TPL, promotes 
the use of U.S. made fabrics and has led to an increase of those 
exports. Cintas, a company based in my home state of Ohio where it 
employs nearly 3,500 people, has been an active user of this program 
since it was enacted in 2006. The TPL's expiration has significantly 
increased the cost of doing business there and has repealed the cost 
competitiveness of using U.S. fabrics. Although there has been a short 
term increase of exported fabrics, many believe this trend is not 
likely to continue in the long term as this garment production will 
likely move to Asia. Can you tell me when the U.S. intends to revive 
this successful program? If not, can you justify why the U.S. is not 
pursuing renewal of the special earned import allowance provision that 
has provided vast benefits to U.S. uniform, apparel and fabric 
companies and their employees?

    Answer. It is my understanding that the Administration has not yet 
taken a position on extending the Nicaragua one-for-one program. If 
confirmed, I will work closely with you and other Members, as well as 
all relevant stakeholders, on this important issue.

    Question. As you may know, Congress recently passed Trade Promotion 
Authority, which included two principal negotiating objectives calling 
for U.S. negotiators to deal with currency manipulation by our 
competitors. If confirmed, how will you prioritize dealing with 
currency issues, in compliance with these negotiating objectives?

    Answer. Addressing persistently undervalued exchange rates has been 
a top priority for the Administration. Led by the Treasury Department, 
which is responsible for currency issues, the Administration has worked 
hard to promote a level global playing field by moving major economies 
to market-determined exchange rate systems with transparent and 
flexible exchange rates that reflect underlying economic fundamentals. 
As you note, the negotiating objectives on currency in the Bipartisan 
Congressional Trade Priorities and Accountability Act of 2015 are 
designed to promote greater accountability of the currency policies of 
our trading partners. With regard to addressing exchange rates in the 
context of our trade initiatives, we will continue to engage with 
Congress and our domestic stakeholders on how best to achieve our 
policy objectives in this area.

                                 ______
                                 
              Questions Submitted by Hon. Robert Menendez
    Question. Ms. Lago, several of our current free trade partners in 
Central America have raised concerns that if the final TPP includes 
concessions requested by Vietnam regarding rules of origin and short 
supply lists for textile and apparel, it will result in severe job 
losses and potentially gut the textile and apparel industry in the 
Western Hemisphere.

      What plans, if any, does USTR have to ensure that CAFTA 
countries and others in Central America are not negatively affected by 
the TPP?
      Will you commit to me to work with our trading partners in the 
region to ensure that our trade relationships remain robust?

    Answer. We have a strong relationship in textile and apparel trade 
with the region. Our CAFTA-DR partners enjoy duty-free access to the 
U.S. market for textiles and apparel today and provide the same access 
to products of the United States. The United States and CAFTA-DR 
countries also share a highly integrated textile and apparel supply 
chain. This success has increased the competitiveness of the region's 
producers. I understand that the United States' TPP textiles proposal 
takes into account the importance of regional integration and business 
relationships between CAFTA-DR and the United States. USTR has also 
taken steps to ensure that our CAFTA-DR partners have the time and 
opportunity to position themselves well to compete in the U.S. market, 
for example by pursuing long tariff phase outs for our most sensitive 
products and a yarn-forward rule of origin. If confirmed, I will work 
with our CAFTA-DR partners to maximize use of the CAFTA-DR benefits 
that are currently available in the textile and apparel sectors--as 
well as other sectors--and to ensure that other factors that can 
greatly effect regional competitiveness, such as high transportation 
costs and lengthy customs processing times, are given priority 
attention.

    Question. Ms. Lago, I am extremely concerned with the policy this 
administration has taken with the Cuban Government.

      What are the administration's plans to expand trade with Cuba?
      Is Cuba ready to implement the internationally recognized labor, 
environment, and good governance standards necessary to be a 
trustworthy trading partner of the United States?
      Does Jackson-Vanik apply to Cuba? Does the Administration plan 
to notify Congress of an intent to grant a waiver?

    Answer. The U.S. trade embargo with Cuba remains in place. Most 
transactions between the United States and Cuba continue to be 
prohibited. There would be a number of steps necessary for complete 
normalization of trade relations with Cuba were a decision be made to 
move in this direction. Actions would also need to be taken at a wide 
variety of levels: legislation by Congress, executive actions by the 
President, and work with international organizations, bilaterally with 
Cuba, and multilaterally at the World Trade Organization.

    Question. Ms. Lago, as you know, my amendment to prohibit ``fast-
track'' procedures for trade agreements with countries ranked Tier 3 on 
the State Department's Trafficking in Persons report was passed by both 
houses of Congress and signed by the President last month. Tier 3 
countries fail to meet the minimum standards to prosecute perpetrators 
of human trafficking and to care for their victims.

      Please describe the role of USTR in negotiating human rights 
concerns with potential trading partners. For example was a Tier 3 
country such as Malaysia chosen for TPP inclusion without direct 
consultation with the Office of Trafficking in Persons?

    Answer. While the promotion of human rights globally is a priority 
for the entire Administration, the State Department is solely 
responsible for drafting the annual Trafficking in Persons (TIP) report 
and assigning countries to a specific ``tier.'' I understand that USTR 
consults closely with the State Department, including the Office of 
Trafficking in Persons, on the promotion of efforts to address human 
trafficking within trade negotiations. In the Trans-Pacific Partnership 
trade agreement, USTR is negotiating strong protections of 
international labor rights with the 11 other countries, including 
Malaysia. These protections will include specific obligations on forced 
labor, and I understand that the Administration is discussing with 
Malaysia the specific actions that it will need to take to fulfill 
these obligations.

    Question. Some people argue that trade and human rights are two 
separate issues. Seems to me that trading with certain countries, like 
Malaysia, where a significant number of employees in the tradeable 
goods sector are in situations of forced labor demonstrates that direct 
connection.

      In your opinion, should we be granting privileged access to U.S. 
markets to countries that consistently fail to protect victims of 
modern slavery?

    Answer. The United States requires the highest labor standards in 
the world in its trade agreements, and once we have negotiated these 
agreements, we enforce those rights vigorously. TPP is an opportunity 
to set strong labor standards to uphold labor rights, level the playing 
field for American workers, and raise conditions and living standards 
for workers around the world. The Administration is working closely 
with Malaysia and other TPP countries to agree on the specific reforms 
that they will need to make in order to gain the benefits of TPP. In 
addition to requiring our trading partners to reform their labor laws 
and practices to meet these standards, we back up those obligations 
with strong enforcement mechanisms in our trade agreements, including 
trade sanctions. A key reason that countries are willing to make these 
comprehensive and sometimes difficult reforms is precisely because of 
the benefits of the trade agreement.

    Question. USTR is tasked with negotiating our trade agreements and 
if confirmed, you specifically will be working to raise and uphold the 
labor standards in those agreements. However, once the deal is 
ratified, it seems that USTR fails to follow through with the 
implementation. I've heard from outside groups that funding for labor 
technical assistance to implement previous trade agreements has 
basically dried up.

      Why should we expect that the TPP will be any different?
      Please provide a current accounting of the labor rights programs 
associated with our existing trade agreements: the agreements that 
provide for them, the programs we are pursuing under those agreements, 
and the level of funding for those programs.

    Answer. I strongly agree that ensuring that sufficient technical 
assistance is provided to our developing country trade partners is 
critical for both the United States and our trade partners to fully 
realize the benefits of our trade agreements. On labor issues, this is 
particularly true since the labor rights standards in our most recent 
trade agreements are the highest in the world and frequently require 
our trading partners to undertake significant legal and institutional 
reforms. The Administration has provided to our trade partners a wide 
range of labor-related technical assistance that is tailored to the 
issues the countries face.

    These labor-related programs and technical exchanges are supported 
by staff and resources primarily from the Department of Labor (DOL), 
the Department of State (State), and the United States Agency for 
International Development (USAID). While the United States engages our 
trade partners on labor issues through a variety of means, currently 
for countries with which the United States has a free trade agreement, 
these agencies are supporting programs that address: freedom of 
association in Bahrain (State), labor rights in Central America 
(State), union capacity building in Central America (State), labor 
rights in Colombia (DOL, State), child labor in Colombia (DOL), union 
capacity building in Colombia (USAID), union capacity building in the 
Dominican Republic (State), child labor in El Salvador (DOL), union 
capacity building in Guatemala (USAID), factory mediation in Honduras 
(State), union capacity building in Honduras (USAID), child labor in 
Honduras (DOL), child labor in Jordan (DOL), freedom of association in 
Jordan (State), labor standards in factories in Jordan (DOL), union 
capacity building in Mexico (USAID), nondiscrimination in Mexico (DOL), 
strengthening inspection and mediation in Morocco (DOL), fundamental 
labor rights in Morocco (State), child labor in Morocco (DOL), labor 
standards in factories in Nicaragua (DOL), freedom of association in 
Oman (State), child labor in Panama (DOL), labor inspections in Peru 
(DOL), child labor in Peru (DOL), and forced labor in Peru (DOL). If 
confirmed, I will work with you to explore whether these programs are 
sufficiently funded.

    This demonstrates the comprehensive and targeted support that this 
Administration continues to provide to our existing trade partners. I 
understand that for TPP the Administration similarly expects to provide 
support for implementation of the ambitious commitments that countries 
are undertaking in order to ensure the obligations of our trade 
agreements are met and that worker rights and working conditions 
benefit from the reforms that countries are implementing.

    Question. U.S. companies and workers lead the world in innovation 
across many sectors, whether that's creating state-of-the-art 
technologies that provide new platforms by which Americans and citizens 
around the world can connect and share information, or benefiting 
patients with medicines that improve and save lives. This innovation 
environment is able to flourish based on the stability of our 
intellectual property laws, which provide the appropriate balance to 
encourage investment and research. And globally, the U.S. and other 
countries have committed to international standards for patent issuance 
so innovators are able to seek patents on their inventions through a 
fair and reliable process.

      Can you assure me that if confirmed you will continue to work to 
encourage innovation and help protect U.S. industry abroad?

    Answer. The USTR team is working around the globe to promote strong 
and balanced IP protection and enforcement, which provide a critical 
incentive for innovation. USTR continues to engage intensively to 
advance the interest of U.S. innovators and creators globally and to 
encourage enabling environments that include IPR, which is vital for 
the development of new IP-intensive goods and services, including 
innovative technologies, content, brands and medicines. If confirmed, I 
will work to promote transparency, certainty and predictability in the 
IP systems of our trading partners, including with respect to patents.

    Question. Relying on a discriminatory legal doctrine used nowhere 
else in the world, Canadian courts have invalidated patents on 19 
innovative medicines for conditions like cancer, diabetes and high 
blood pressure. These decisions are inconsistent with Canada's 
international obligations and threaten investment in future cures. They 
are harming an industry that supports nearly 3.4 million American jobs, 
over 70,000 of which are in New Jersey.

      If confirmed, what will you do to address and reverse the 
serious and growing challenge posed by Canada's ``patent utility 
doctrine'' before it does further damage?

    Answer. I understand that USTR is engaged with Canada on this 
important issues. If confirmed, I will press Canada to address concerns 
about the lack of clarity and the impact of the patent utility 
decisions of some Canadian courts. I will urge Canada to improve the 
situation and clarify these standards for patent applicants and 
holders.

                                 ______
                                 
                Question Submitted by Hon. Richard Burr

    Question. In 2009, the U.S. and EU reached the U.S./EU WTO 
Agreement on Bananas. This Agreement was aimed at eventually ending the 
WTO Banana dispute if the EU honored its commitments, including its 
commitment in the Agreement not to discriminate against U.S. banana 
service suppliers on licensing measures. It is my understanding that 
the United States has not settled the Banana case because of a concern 
that since 2009, Italy has been levying sizable, discriminatory 
assessments against a U.S. banana service supplier for engaging in 
licensing arrangements that were permitted and widely used under EU 
law, including by EU-owned firms. It is also my understanding that the 
European Commission has declined over the past 2 years to clarify its 
position on this issue and USTR has consequently been reviewing how 
best to ensure EU compliance under the 2009 Agreement. I appreciate 
USTR's attention to this matter, which relates directly to the 
effective enforcement of trade agreements. I would appreciate knowing 
what specific steps, including under the 2009 Agreement, USTR intends 
to take in the near term to uphold the Agreement and its numerous 
successful WTO rulings in this dispute.

    Answer. The United States in 2010 signed a bilateral agreement on 
bananas with the EU, which entered into force on January 24, 2013. That 
agreement was related to a banana tariff-cutting agreement the EU 
concluded at the same time with a number of Latin American banana 
exporting countries. Both agreements were designed to bring an end to 
the longstanding bananas-related disputes then pending in the WTO. On 
November 8, 2012, the EU and Latin American countries announced that 
they had settled all bananas-related disputes and claims pending 
between them.

    I understand that USTR has been in frequent contact over recent 
months with the affected supplier concerning the actions taken by 
Italian customs authorities and related decisions taken by Italian 
courts challenging the supplier's use of certain EU banana import 
licenses under pre-2006 EU banana import regulations. I further 
understand that the supplier has informed USTR that its use of import 
licenses during the period in question was consistent with EU governing 
regulations in effect at the time. USTR has been pressing the European 
Commission to clarify its position on this matter and will continue to 
do so.

                                 ______
                                 
                Questions Submitted by Hon. John Cornyn
    Question. Both the Colombia and the Peru trade promotion agreements 
contain provisions calling for the negotiation of cumulation provisions 
to facilitate regional integration.

      What is the status of these discussions?
      What steps will you take to ensure that these important 
provisions are implemented as soon as possible?

    Answer. As you note, there are regional cumulation provisions for 
textiles and apparel within the United States--Colombia Trade Promotion 
Agreement and the United States--Peru Trade Promotion Agreement. The 
agreements provide that the Parties will enter into consultations to 
discuss whether products of countries within the region should be 
allowed to satisfy the rules of origin requirements of each agreement, 
subject to relevant domestic legal requirements.

    I understand that USTR has met several times with Peru and Colombia 
to discuss the issue, most recently with Colombia on July 27-29, 2015. 
USTR has noted that domestic procedures require full consultations with 
affected stakeholders, as well as an amendment to each agreement and a 
new implementation action by Congress, before cumulation could become 
effective. I understand that USTR has also asked for data from Peru and 
Colombia on products that would be affected by cumulation in order to 
advance the discussions. If confirmed, I will consult closely with the 
Governments of Colombia and Peru, domestic stakeholders, and Congress 
on this important matter.

    Question. This month marks the 10th anniversary of Congressional 
approval of the CAFTA-DR.

      What is the Administration's assessment of this trade agreement?

    Answer. The CAFTA-DR has further integrated the region's already 
highly integrated manufacturing and supply-chain network. Designed to 
establish the legal and regulatory framework to build long-term growth 
and prosperity, the CAFTA-DR has had a positive economic and 
development impact on member countries. U.S. exports to Central America 
and the Dominican Republic grew more than 84 percent from 2005 to 2014, 
reaching $31.1 billion. U.S. imports from CAFTA-DR countries totaled 
$28.4 billion in 2014, up 57% from 2005. And the intra-regional trade 
among Central American countries and the Dominican Republic increased 
by 87 percent between 2005 to U.S. $8.5 billion by 2014.

    Foreign Direct Investment increased in all CAFTA-DR countries both 
prior to and after the CAFTA-DR entered into force. Reported U.S. 
foreign direct investment in CAFTA-DR countries (stock) was $7.4 
billion in 2013, an increase of roughly $3.1 billion from the pre-
CAFTA-DR level of $4.3 billion in 2005.

    In assessing the economic and commercial impact of the CAFTA-DR, 
the importance of ensuring the effective implementation among countries 
remains key. The CAFTA-DR provides the tools, framework and strong 
incentives for regional economic integration. Ongoing monitoring and 
enforcement, as well as technical support, will continue to strengthen 
implementation of the CAFTA-DR and further expand the benefits of trade 
to the region.

    Question. Government officials in Central America have raised 
concerns to me over the potential impact of the TPP on CAFTA-DR 
countries, especially in the area of textiles and apparel.

      What steps has the Administration taken in Central America to 
keep this region and industry competitive?

    Answer. We have a strong relationship in textile and apparel trade 
with the region. Our CAFTA-DR partners enjoy duty-free access to the 
U.S. market for textiles and apparel today and provide the same access 
to products of the United States. The United States and CAFTA-DR 
countries also share a highly integrated textile and apparel supply 
chain. This success has increased the competitiveness of the region's 
producers. I understand that the United States' TPP textiles proposal 
takes into account the importance of regional integration and business 
relationships between CAFTA-DR and the United States. USTR has also 
taken steps to ensure that our CAFTA-DR partners have the time and 
opportunity to position themselves well to compete in the U.S. market, 
for example by pursuing long tariff phase outs for our most sensitive 
products and a yarn-forward rule of origin. If confirmed, I will work 
with our CAFTA-DR partners to maximize use of the CAFTA-DR benefits 
that are currently available in the textile and apparel sectors--as 
well as other sectors--and to ensure that other factors that can 
greatly effect regional competitiveness, such as high transportation 
costs and lengthy customs processing times, are given priority 
attention.

    Question. Given the 10-year extension of AGOA, and the continued 
focus on TPP and TTIP, it is important that we don't forget our 
neighbors in Central and South America, and our other non-TPP FTA 
partners in the hemisphere. In Texas, we see the significant commercial 
benefits of expanding trade with our neighbors--and our businesses 
large and small benefit from expanded trade across the border and 
throughout Central and South America.

      What would you do as Deputy USTR to help ensure that textile and 
apparel trade between the U.S. and our allies in the Western Hemisphere 
remains strong and fosters new growth for U.S. exports?
      Will you commit to work with me and this Committee to develop a 
trade strategy for our region that will build off our current FTAs and 
complement the efforts on TPP and TTIP?

    Answer. Our non-TPP FTA partners in the Western Hemisphere--
Colombia, Costa Rica, the Dominican Republic, El Salvador, Honduras, 
Guatemala, Nicaragua and Panama--all enjoy duty-free access to the U.S. 
market for textiles and apparel today and provide the same access to 
products of the United States. Textile and apparel products are a 
significant part of our trade with these countries, and this success 
has created supply chains that increase the competitiveness of the 
region globally. If confirmed, I will work with our partners in the 
region to maximize use of this preferential access and to ensure that 
other factors that can greatly effect regional competitiveness, such as 
high transportation costs and lengthy customs processing times, are 
given priority attention.

    If confirmed, I will work with you and others Members to deepen our 
trade engagement in the Western Hemisphere. With five of the 12 TPP 
countries located in the Western Hemisphere, I expect that the TPP, 
once concluded and implemented, will set a new standard for trade 
agreements in this hemisphere and beyond.

                                 ______
                                 
   Prepared Statement of W. Thomas Reeder, Nominated to be Director, 
                  Pension Benefit Guaranty Corporation
    Mr. Chairman, Ranking Member Wyden, Members of the Committee, thank 
you for the opportunity to discuss my nomination today.

    The Pension Benefit Guaranty Corporation (PBGC) continues to endure 
challenging times. Its fiscal year 2014 deficit increased to $62 
billion, up from $36 billion the year before. While the single-employer 
program has improved significantly, the multi-employer program's 
deterioration has been driven by the declining financial position of a 
few very large multi-employer plans.

    Congress responded to the crisis in the multi-employer program with 
the enactment of the Kline-Miller Multi-employer Pension Reform Act of 
2014. That Act included several tools to extend the solvency of the 
multi-employer program. PBGC and Treasury and Labor Departments have 
already provided much of the administrative framework and guidance to 
make that law work as intended. If confirmed, one of my highest 
priorities will be to work closely with Treasury and the IRS, the 
Department of Labor, and all stakeholders to ensure that new statute is 
administered fairly. However, the Kline-Miller legislation has only 
provided a year or two of time. Much more has to be done to prevent 
insolvency of the multi-employer program within the coming 10 years and 
the sooner the action is taken, the less disruptive it will be.

    Of course the issues at PBGC are much more than the deficit of the 
multi-
employer system. The agency is administering single-employer plans and 
providing assistance to insolvent multi-employer plans that 
collectively cover nearly 1.5 million Americans, two thirds of whom are 
already receiving retirement benefits. Payouts to retirees under these 
plans amounted to $5.6 billion in fiscal year 2014. And PBGC manages 
investments of over $80 billion. If confirmed, I will work hard to 
ensure that the agency continues to focus on its strategic goals of 
preserving plans and protecting pensioners, paying timely and accurate 
benefits, and maintaining high standards of stewardship and 
accountability.

    I am honored to be nominated for this position and am eager to take 
on the challenge. have devoted most of my professional career toward 
helping employers establish and maintain retirement plans for their 
employees and helping individuals achieve retirement security. And I 
believe my rich background of experiences has well prepared me for this 
role. The PBGC's main purpose is to provide a safety net to continue 
benefits for pension plan participants when companies can no longer 
afford the program and to help plan sponsors keep their plans ongoing.

    I was an attorney in private practice in the retirement arena for a 
dozen years before entering public service. As such, I advised clients 
on creating and operating pension plans. I gained an appreciation for 
the fact that most employers want to help their employees prepare for 
retirement. But this view is often offset, particularly with small 
employers, by the uncertainty of funding a traditional defined benefit 
pension plan and the perceived regulatory burden of starting and 
maintaining a plan. I also gained first-hand knowledge of working with 
government regulatory agencies in the pension area and an appreciation 
for the talent and dedication of the staffs of each of the agencies.

    Since my years in private practice, I played an active role in the 
development and administration of retirement policy at the Department 
of the Treasury. As a member of the Senior Executive Service there, I 
gained a reputation for working cooperatively with all the stakeholders 
in the employee benefits arena, including employers, employee groups, 
other agencies, and Congress. I was at Treasury under three Presidents 
and have found that retirement security is a high priority shared by 
leaders in both political parties. I directed Treasury's successful 
administration of several pension reform statutes, including the 
Pension Protection Act of 2006 and the Worker, Retiree, and Employer 
Recovery Act of 2008.

    Following my experience at the Treasury Department, I was a senior 
staffer in this Committee. I continued to work hard to bring people 
together to face difficult issues head-on and find consensus solutions 
to complex problems--solutions that respect all the stakeholders. 
Having worked for the Finance Committee, I know the importance of 
working with Congress. I look forward to working closely with you. I 
want to hear your ideas and be responsive to your concerns about the 
agency.

    If confirmed to lead the PBGC, I would work with stakeholders and 
staff to develop a workable consensus with respect to the agency's 
policies and programs. Retirement security is essential. Defined 
benefit plans are a better way to achieve it than defined contribution 
plans and must be preserved. We need to find creative ways to involve 
more employees and employers in retirement savings, but, at a minimum, 
we must devote ourselves to protecting the promise that has already 
been made to employees for lifetime income from their employers' 
pension plans.

    In preparing for this confirmation process, I have learned even 
more about the talent and professionalism of the staff at the PBGC and 
their dedication to their responsibility of protecting the pensions of 
more than 40 million people. I believe I have the right experience and 
capability to lead that agency toward even greater success in achieving 
its mission.

    If confirmed, I would be honored to join the professionals at PBGC 
in working towards the goal of retirement security, and I look forward 
to working with Congress and everyone who shares that goal.

    Thank you for the opportunity to appear before you today. I look 
forward to hearing your views and answering your questions.

                                 ______
                                 

                        SENATE FINANCE COMMITTEE

                  STATEMENT OF INFORMATION REQUESTED 
                               OF NOMINEE

                      A. BIOGRAPHICAL INFORMATION

1.   Name (include any former names used): William Thomas Reeder, Jr.

2.   Position to which nominated: Director, Pension Benefit Guaranty 
Corporation

3.   Date of nomination: May 21, 2015

4.   Address (list current residence, office, and mailing addresses):

5.   Date and place of birth: October 27, 1950, El Paso, Texas

6.   Marital status (include maiden name of wife or husband's name):

7.   Names and ages of children:

8.   Education (list secondary and higher education institutions, dates 
attended, degree received, and date degree granted):

     Mt. Vernon High School, Alexandria, VA (1968)
     College of Liberal Arts, University of Texas at Austin (BA, 1972)
     College of Education, University of Texas at Austin (BSEd, 1974)
     Graduate School of Business, University of Texas at Austin (MBA, 
1982)
     School of Law, University of Texas at Austin (JD, 1987)

9.   Employment record (list all jobs held since college, including the 
title or description of job, name of employer, location of work, and 
dates of employment):

      Tax Examiner, Internal Revenue Service, Austin, TX (1973-1974)

      High School Teacher, Crockett High School, Austin, TX (1974-1976, 
1978-1984)

      Volunteer, United States Peace Corps, Togo, West Africa (1976-
1978)

      Honors Program Clerk, U.S. Department of Justice Tax Division, 
Washington, DC, 1986

      Associate, Akin, Gump, Strauss, Hauer and Feld, Washington, DC 
(1987-1991)

      Associate, Of Counsel, Partner, Paul, Hastings, Janofsky and 
Walker, Washington, DC (1991-2000)

      Attorney Advisor, Associate Benefits Tax Counsel, Deputy Benefits 
Tax Counsel, and Benefits Tax Counsel, U.S. Department of the Treasury, 
Washington, DC (2000-2009)

      Senior Benefits Counsel, Senate Finance Committee, Washington, DC 
(2009-2013)

      Health Care Counsel, Internal Revenue Service, Washington, DC 
(2013-Present)

10.  Government experience (list any advisory, consultative, honorary, 
or other part-time service or positions with Federal, State, or local 
governments, other than those listed above):

      None.

11.  Business relationships (list all positions held as an officer, 
director, trustee, partner, proprietor, agent, representative, or 
consultant of any corporation, company, firm, partnership, other 
business enterprise, or educational or other institution):

      President, Tom and Ruth Fenzi Reeder Foundation, Alexandria, VA 
(2001-Present)

12.  Memberships (list all memberships and offices held in 
professional, fraternal, scholarly, civic, business, charitable, and 
other organizations):


------------------------------------------------------------------------
 
------------------------------------------------------------------------
Member, American Bar Association     1987-Present
------------------------------------------------------------------------
Member, DC Bar Association           1988-Present
------------------------------------------------------------------------
Member, State Bar of Texas           1987-Present (inactive status since
                                      approx. 1990)
------------------------------------------------------------------------
Member, Hyde Park Neighborhood       1978-1987
 Association
------------------------------------------------------------------------
Member, Friends of Togo              1987-Present
------------------------------------------------------------------------
Member, John Marshall Law School     2007-2011
 LLM Program Advisory Board
 
------------------------------------------------------------------------
 
Member, DC Randonneurs               2005-Present
------------------------------------------------------------------------
Member, Randonneurs USA              2003-Present
------------------------------------------------------------------------
Member, Austin Cycling Association   1978-1987
------------------------------------------------------------------------
Member, League of American           1978-Present
 Bicyclists (1979-1984: Texas State
 Legislative Representative
 (unpaid))
------------------------------------------------------------------------


13.   Political affiliations and activities:

      a. List all public offices for which you have been a candidate.

         None.

      b.  List all memberships and offices held in and services 
rendered to all political parties or election committees during the 
last 10 years.

         None.

      c.  Itemize all political contributions to any individual, 
campaign organization, political party, political action committee, or 
similar entity of $50 or more for the past 10 years.

         Obama 2012 Presidential Campaign, $500
         John Tester 2012 Senate Campaign, $500
         Andrew Person Montana Delegate Campaign, $100

14.   Honors and Awards (list all scholarships, fellowships, honorary 
degrees, honorary society memberships, military medals, and any other 
special recognitions for outstanding service or achievement):

     Teacher of the Year, Crockett High School, 1983/84

     Sord Scholar, University of Texas School of Business, 1980 
(Academic Excellence)

     Fellow, American College of Employee Benefits Counsel, 2008

     Secretary's Honor Award, Department of the Treasury, 2005

     Ken Gideon Award, Internal Revenue Service, 2007, 2008

15.   Published writings (list the titles, publishers, and dates of all 
books, articles, reports, or other published materials you have 
written):


------------------------------------------------------------------------
 
------------------------------------------------------------------------
The Nondiscrimination      Society for Hum.          Winter 1992
 Rules for Employee         Resource Mgmt. Legal
 Health and Welfare         PReport
 Plans: The Ghost of
 Section 89?
------------------------------------------------------------------------
``Benefit Plans and        BNA                       1998
 EEO,'' Chapter 8 of the
 Equal Employment Law
 Treatise Update
------------------------------------------------------------------------
Recent Developments in     Journal of Pension Plans  1991
 Plan Participant Loan      and Compliance
 Programs
------------------------------------------------------------------------


16.   Speeches (list all formal speeches you have delivered during the 
past 5 years which are on topics relevant to the position for which you 
have been nominated):

       I have made more than a dozen speeches in the past 5 years on 
current topics in Employee Benefits at bar and other trade 
associations. None of them were formal, and I do not have the text of 
any of them.

17.   Qualifications (state what, in your opinion, qualifies you to 
serve in the position to which you have been nominated):

       I believe my academic, legal, government, and legislative 
experience described above, along with my professional reputation in 
and out of government, qualify me well to lead the PBGC.

                   B. FUTURE EMPLOYMENT RELATIONSHIPS

1.   Will you sever all connections with your present employers, 
business firms, associations, or organizations if you are confirmed by 
the Senate? If not, provide details.

      Yes, except that I plan to continue work in funding and 
administering our small charitable family foundation, in accordance 
with the terms of the ethics agreement that I have entered into with 
the Agency's Ethics Official and that has been provided to this 
Committee.

2.   Do you have any plans, commitments, or agreements to pursue 
outside employment, with or without compensation, during your service 
with the government? If so, provide details.

      No.

3.   Has any person or entity made a commitment or agreement to employ 
your services in any capacity after you leave government service? If 
so, provide details.

      No.

4.   If you are confirmed by the Senate, do you expect to serve out 
your full term or until the next Presidential election, whichever is 
applicable? If not, explain.

      Yes.

                   C. POTENTIAL CONFLICTS OF INTEREST

1.   Indicate any investments, obligations, liabilities, or other 
relationships which could involve potential conflicts of interest in 
the position to which you have been nominated.

      I have consulted with the Agency's Ethics Officials to identify 
potential conflicts of interest. Any potential conflicts of interest 
will be resolved in accordance with the terms of the ethics agreement 
that I have entered into with the Agency's Ethics Official and that has 
been provided to this Committee. I am not aware of any potential 
conflicts of interest.

2.   Describe any business relationship, dealing or financial 
transaction which you have had during the last 10 years, whether for 
yourself, on behalf of a client, or acting as an agent, that could in 
any way constitute or result in a possible conflict of interest in the 
position to which you have been nominated.

      I am not aware of any such potential conflicts of interest.

3.   Describe any activity during the past 10 years in which you have 
engaged for the purpose of directly or indirectly influencing the 
passage, defeat, or modification of any legislation or affecting the 
administration and execution of law or public policy. Activities 
performed as an employee of the Federal government need not be listed.

      None.

4.   Explain how you will resolve any potential conflict of interest, 
including any that may be disclosed by your responses to the above 
items. (Provide the Committee with two copies of any trust or other 
agreements.)

      Any potential conflicts of interest will be resolved in 
accordance with the terms of the ethics agreement that I have entered 
into with the Department's Designated Agency Ethics Official and that 
has been provided to this Committee.

5.   Two copies of written opinions should be provided directly to the 
Committee by the designated agency ethics officer of the agency to 
which you have been nominated and by the Office of Government Ethics 
concerning potential conflicts of interest or any legal impediments to 
your serving in this position.

      To be provided.

6.   The following information is to be provided only by nominees to 
the positions of United States Trade Representative and Deputy United 
States Trade Representative:

      Have you ever represented, advised, or otherwise aided a foreign 
government or a foreign political organization with respect to any 
international trade matter? If so, provide the name of the foreign 
entity, a description of the work performed (including any work you 
supervised), the time frame of the work (e.g., March to December 1995), 
and the number of hours spent on the representation.

                       D. LEGAL AND OTHER MATTERS

1.   Have you ever been the subject of a complaint or been investigated 
, disciplined, or otherwise cited for a breach of ethics for 
unprofessional conduct before any court, administrative agency, 
professional association, disciplinary committee, or other professional 
group? If so, provide details.

      No.

2.   Have you ever been investigated, arrested, charged, or held by any 
Federal, State, or other law enforcement authority for a violation of 
any Federal, State, county or municipal law, regulation, or ordinance, 
other than a minor traffic offense? If so, provide details.

      No.

3.   Have you ever been involved as a party in interest in any 
administrative agency proceeding or civil litigation? If so, provide 
details.

      No.

4.   Have you ever been convicted (including pleas of guilty or nolo 
contendere) of any criminal violation other than a minor traffic 
offense? If so, provide details.

      No.

5.   Please advise the Committee of any additional information, 
favorable or unfavorable, which you feel should be considered in 
connection with your nomination.

      None.

                     E. TESTIFYING BEFORE CONGRESS

1.   If you are confirmed by the Senate, are you willing to appear and 
testify before any duly constituted committee of the Congress on such 
occasions as you may be reasonably requested to do so?

      Yes.

2.   If you are confirmed by the Senate, are you willing to provide 
such information as is requested by such committees?

      Yes.

                                 ______
                                 
      Questions Submitted for the Record to W. Thomas Reeder, Jr.
               Questions Submitted by Hon. Orrin G. Hatch
    Question. Mr. Reeder, one of the most difficult tasks at the PBGC 
is calculating the correct pension amount for retirees, and calculating 
the correct amount of the plan liabilities overall, for plans that are 
taken over by the PBGC from companies that go bankrupt. In addition, 
the plan documents are complicated and the rules that govern PBGC 
pension calculations are extraordinarily complex. We have heard over 
the years from some airline pilots who worked for airlines that went 
bankrupt about a pension calculation issue. It seems that pilots at the 
time were required by federal aviation law to retire at age 60, but the 
PBGC may have been required by pension law to treat their retirement 
age as 65. Working together these two rules seem to have resulted in a 
dramatic reduction in the amount of the pension calculation for the 
pilots affected. As Director, if confirmed, you will of course have to 
follow the law as written. But are willing to look at this situation 
once you arrive at the PBGC and see if, by chance, anything in the law 
might have been overlooked by the PBGC in the calculation of these 
pilot pensions?

    Answer. I am not fully aware of the details of this issue. My 
understanding is that the authority to create new classes of guaranteed 
benefits is linked to another provision of ERISA that requires 
enactment of an additional, separate premium to fund them. As you know, 
Congress sets premium rates by law and has not enacted a separate, 
additional premium for this purpose. If confirmed, I will be happy to 
analyze the details of this more carefully.

    Question. Unlike the single-employer pension program, where the 
PBGC takes over a plans assets and liabilities and actually administers 
the plan of a bankrupt employer, in the multi-employer program the PBGC 
essentially loans money to the insolvent multi-employer plan, and the 
plan continues to administer the benefits. We have been told that in 
the entire history of the PBGC, only one loan has ever been repaid. If 
confirmed as Director, and in light of the serious problems presented 
to the PBGC by multi-employer plans, would you be willing to consider 
and perhaps propose to Congress alternative ways for the PBGC to 
address insolvent multi-
employer plans?

    Answer. I look forward to working with you and your staff, 
Congress, and our Board to carefully consider alternatives.

                                 ______
                                 
                Questions Submitted by Hon. Rob Portman
    Question. My constituents in Ohio who have seen their pension plans 
taken over by the PBGC report to me that they have a difficult time 
getting accurate answers to questions about their pensions. If you are 
confirmed will you commit to correcting this situation, improving the 
training and accuracy of source materials used by those who represent 
the PBGC to the public?

    Answer. I strongly believe in the importance of providing high 
quality service to the participants in the plans that have terminated 
and have been transferred to PBGC. Timely, accurate administration of 
benefits is at the core of PBGC's mission. If I am confirmed, I commit 
to making sure that we have a motivated, high performing benefits 
administration and payment organization that meets the needs of the 
participants it serves.

    Question. I have heard from many of my constituents regarding 
lengthy delays by PBGC in order to calculate the final benefit 
determinations for plan participants. I joined several colleagues from 
Ohio in writing the Acting Director to request the status of final 
benefit determinations for the Delphi Salaried Retirees. Previous 
information provided by the PBGC indicated that there was a 2 year 
delay in beginning the efforts to make a final benefit determination, 
which was followed by an outside contractor working for 2 years before 
being replaced by a new contractor. In the eyes of Ohioans waiting for 
the resolution of this issue, this demonstrated a lack of urgency and a 
lack of effort being made for participants in the plans that have been 
trusteed by the PBGC. If you are confirmed, will you commit to making 
PBGC more efficient as well as more transparent and responsive to 
pension plan participants? How can we expedite the time it takes to 
complete final benefit determinations, given that 6 years seem 
unacceptably long for struggling families trying to make ends meet?

    Answer. If confirmed I will do everything in my power to ensure 
that PBGC will start sending final benefit determination letters to 
Delphi Salaried plan participants in October of this year, as promised. 
I understand that PBGC is on track to do so. As I stated above, if 
confirmed, I am committed to making sure that we have a motivated, high 
performing benefits administration and payment organization. I look 
forward to working with the PBGC staff, the Board, and Congress in 
finding ways to expedite the process of issuing final benefit 
determination letters and maintaining high standards of quality.

    Question. One of the most important goals of the PBGC, if not the 
most important, should be accountability to the hundreds of thousands 
of retirees in PBGC-trusteed plans. However, I am concerned that, in 
the case of the Delphi Salaried Retirees Plan, which was terminated by 
the PBGC more than 6 years ago, more than 20,000 participants and 
retirees are still waiting for basic information regarding their Plan's 
assets and liabilities. If you are confirmed, will you commit to 
providing more transparency for retirees? Would you commit to providing 
preliminary determinations of assets and liabilities, and actuarial 
assumptions used to determine the need to terminate the plan, and then 
follow up with final calculations and methodologies used to arrive at 
them?

    Answer. I agree that high quality service to participants and 
accountability are at the core of PBGC's mission. As I noted above, if 
confirmed, I will do everything in my power to ensure that PBGC will 
start sending final benefit determination letters to the Delphi 
Salaried plan participants in October of this year, as promised. I am 
aware that PBGC has provided monthly updates to Delphi Salaried plan 
participants on the status of actions needed to issue benefit 
determinations. I look forward to working with you and other 
stakeholders to explore other ways to improve transparency and enhance 
the service PBGC provides to its customers.

                                 ______
                                 
                 Prepared Statement of Hon. Ron Wyden, 
                       a U.S. Senator From Oregon
    Today the Finance Committee has before it two nominees for vital 
positions in the federal government: Marisa Lago, nominated to be a 
Deputy United States Trade Representative at USTR, and Tom Reeder, 
nominated to be the Director of the Pension Benefit Guaranty 
Corporation.

    As Deputy USTR, Ms. Lago will be responsible for a number of 
critical trade issues, including improving labor conditions and 
environmental protections maintained by our trading partners, improving 
market access for American goods and services, and implementing the 
recently-passed African Growth and Opportunity Act.

    USTR needs a full leadership team now more than ever to take on the 
range of trade priorities before it. As Ambassador Froman heads to Maui 
next week in an effort to conclude the Trans Pacific Partnership, he 
will need to deliver on the priorities of Members here at home.

    For my part, that means ensuring that the TPP agreement contains 
21st-century provisions to promote the digital economy, provides 
ambitious market opening for Made in America products, including dairy, 
and contains strong, enforceable rules on labor and the environment. 
Ms. Lago will play a key role ensuring each of these priorities is 
realized.

    Ms. Lago currently serves as Assistant Secretary at the Treasury 
Department, where she works to improve global market access for 
American goods and services. Prior to joining Treasury, she held a 
number of positions promoting economic development in state and local 
governments and in the private sector. She also served as the head of 
the Office of International Development at the SEC.

    Also with us today is Tom Reeder, an alumnus of the Finance 
Committee well-known and admired by Committee members and staff across 
the board. Tom served as Senior Benefits Counsel on the Committee for 
nearly 4 years, and his depth of knowledge and passion for pension and 
employee benefits were invaluable to us all. He currently serves as 
Health Care Counsel at the IRS, and before joining the Finance 
Committee, Mr. Reeder served at the Treasury Department in numerous 
capacities. The PBGC needs strong leadership to tackle a number of 
difficult challenges, and I am confident Mr. Reeder is the right person 
for the job.

    It is my hope that Mr. Reeder will be confirmed quickly so he can 
take the reins of the agency at a critical moment. The PBGC insures the 
pension benefits of America's workers, and, at a time when the agency 
is under financial stress, employers are trending away from defined 
benefit pension plans, and the nation's savings rate remains low, Mr. 
Reeder's policy acumen, integrity, and leadership will be needed.

    I also want to take the time to express my deep concern with 
several changes to the rules that govern multi-employer pensions that 
were included in last year's omnibus package. The changes, which were 
negotiated behind closed doors in the House of Representatives, rolled 
back a major tenet of our pension laws by allowing multi-employer plans 
to cut earned and vested pension benefits. This change could impact 
millions of workers around the country. I plan to work with Mr. Reeder 
to ensure that participants and retirees' rights are safeguarded.

    Thank you both for joining us this morning, I look forward to 
hearing from each of you.

                                   [all]
                                   
                                   
                                   


</pre></body></html>
